<html>
<title> - EMERGENCY PLANNING AND PREPAREDNESS: FEDERAL, STATE, AND LOCAL COORDINATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  EMERGENCY PLANNING AND PREPAREDNESS:
                 FEDERAL, STATE, AND LOCAL COORDINATION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                 PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2006

                               __________

                           Serial No. 109-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
36-959                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007
                               __________


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY



                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science, and Technology.............     3

                               Witnesses
                                Panel I

Mr. Steven Bailey, Director, Pierce County Department of 
  Emergency Management:
  Oral Statement.................................................    17
  Prepared Statement.............................................    20
The Honorable George Foresman, Under Secretary of Preparedness, 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. William ``Bill'' Mitzel, MS, ARM, ALCM, Risk Control 
  Specialist, Home Office Commercial Lines, Unigard Insurance 
  Group
  Oral Statement.................................................    25
  Prepared Statement.............................................    26
Mr James Mullen, Director, Washington Military Department, 
  Emergency Management Division:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Mario H. Trevino, Fire Chief, Bellevue Fire Department:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                                Panel II

Mr. Michael Loehr, Director, Preparedness, Public Health--Seattle 
  and King County:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Sheriff Paul A. Pastor, Jr., Pierce County Sheriff's Office......    42
Mr. William ``Bill'' Pugh, Director, Public Works/Assistant City 
  Manager, City of Tacoma........................................    51
Mr. Roger C. Serra, Director, Security and Emergency Management, 
  Seattle City Light:
  Oral Statement.................................................    53
  Prepared Statement.............................................    55
Mr. A.D. Vickery, Assistant Chief, City of Seattle Fire 
  Department:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46


     EMERGENCY PLANNING AND PREPAREDNESS: FEDERAL, STATE, AND LOCAL
                              COORDINATION

                              ----------                              


                       Wednesday, April 12, 2006

                  House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:00 a.m. at the 
Orting Multi-Purpose Center, 202 Washington Avenue South, 
Orting, Washington, Hon. Dave Reichert [chairman of the 
subcommittee] presiding.
    Members Present: Representatives Reichert and Pascrell.
    Mr. Reichert. The Committee on Homeland Security 
Subcommittee on Emergency Preparedness, Science, and Technology 
will come to order. The Subcommittee will hear testimony today 
on Federal, State and local coordination for emergency planning 
and preparedness.
    I would like to thank every one of the witnesses here today 
and the public for attending this morning's important hearing.
    Before we proceed any further this morning, as chairman, I 
need to take care of some housekeeping duties. Because this is 
an official Congressional hearing as opposed to a town hall 
meeting, we must abide by certain rules of the Committee on 
Homeland Security as well as the House of Representatives. 
Therefore, I kindly ask that there be no applause at any time 
or any kind of demonstration with regard to the testimony. It 
is important that we respect the decorum and rules of the 
Committee and the House. Thank you in advance for your 
understanding.
    Before we begin the testimony today, I must first welcome 
my distinguished colleague, the ranking member of our 
Subcommittee, Mr. Pascrell. The Subcommittee's ranking member 
and New Jersey's finest is welcome to the State of Washington 
and Washington's 8th Congressional District.
    Although Bill and I hail from opposite coasts and belong to 
different political parties, we nonetheless share a common 
vision for a safer America.
    I'm just going to pause here and go off the script just a 
little bit. Bill and I have had the opportunity to work 
together as partners, I think, for about the six months or so 
that I've had this position. And I must say that I think that 
we have become an example, not only for other subcommittees 
under the Homeland Security umbrella, but also for other 
committees and subcommittees within the House of 
Representatives as to how we work together to address the 
Nation's needs, especially when it comes to keeping our 
communities safe from all hazards; not just national hazards, 
but all hazards that we might face in the changing world that 
we all now live in.
    So I'll go back to the script to say that there are few 
members of Congress as passionate as Bill on issues related to 
first responders to Homeland Security. And to be honest, there 
are few in Congress as knowledgeable and with as much expertise 
on the needs and concerns of first responders as Bill.
    So thank you, Bill, for taking part in this hearing. It's 
time away from the family. He's come a long way, all the way 
from New Jersey. I don't pronounce it the same way as he does, 
I'm sure. But this is a long trip. It's a five and a half to 
six-hour trip from New Jersey to the Seattle area, the 
Northwest here, and Bill is on a flight home this evening 
already with his staff, and also the staff of the Homeland 
Security Committee.
    So I just want to take this moment to thank all the staff 
from both sides of the aisle and the staff from the Homeland 
Security Department. Amy especially has been very helpful in 
helping bring this hearing here today. We have a very busy 
schedule after this meeting this afternoon shortly after this 
hearing. So thank you so much, Bill, for taking time to be 
here.
    Thank you, George Foresman and the Department of Homeland 
Security, the Under Secretary for the Department of Homeland 
Security--he's the Under Secretary of Preparedness--for his 
graciousness in appearing before us today. Mr. Under Secretary, 
I'm sure that Bill shares my high regard for you and my 
sincerest wishes for your success in a very challenging job.
    Bill, please correct me if I'm wrong or just simply 
exaggerating, but I believe our Subcommittee to be one of the 
most bipartisan in all of Congress. Although we have some 
policy differences on occasion, Bill and I and our colleagues 
on both sides of the aisle, our goal is enhancing our nation's 
ability to prevent and therefore mitigate against, respond to 
and recover from acts of terrorism, especially those involving 
weapons of mass destruction, natural disasters and emergencies.
    There is a public perception that bipartisanship, if it 
isn't dead yet, is on life support. But as long as I have 
anything to say or do about it, bipartisanship on this 
Subcommittee will remain strong. After all, homeland security 
is a bipartisan issue. Neither party has a monopoly on national 
security or the caring for the wellbeing of our
    Nation and its citizens. That is precisely why Bill and I 
will within the next month or so jointly introduce legislation 
to fix two of the most serious deficiencies within our National 
Disaster Response System as made evident by the government's 
response after Hurricane Katrina.
    The first bill on public safety emergency communications 
will, among other things, establish an office of emergency 
communications in the preparedness directives, consolidate the 
national communications system, SAVCOM, program, the integrated 
network project, the interoperable communications technical 
assistance program within this new office, and transfer the 
Department of Commerce's new $1 billion interoperability grant 
program to DHS.
    The second bill, which is on preparedness and response, 
will instead of restoring FEMA to its previous status as an 
independent agency, better integrate FEMA into the department, 
restore the nexus between preparedness and response, and 
implement many important Katrina-related reforms such as 
creating an Office of Public and Community Preparedness.
    The purpose of this hearing is to help us gain a more 
thorough understanding of what Congress can do to better assist 
the Seattle region's efforts to enhance all hazard 
preparedness. Specifically we will examine the state of the 
region's coordination, cooperation and planning for the state 
of the region's catastrophic events, whether manmade or 
natural, and how well the Department of Homeland Security is 
working with our State and local governments.
    There are few metropolitan regions in the country as 
vulnerable as ours. Those of us who live in the Pacific 
Northwest unfortunately are all too familiar with nature's 
fury. In fact, I'm pressed to think of any other region that 
faces the same number of natural hazards such as volcanic 
eruptions, lahars, earthquakes, tsunamis, wildfires and floods, 
just to name a few. Given our region's wealth of critical 
infrastructures such as the Port of Seattle, our military 
bases, and our proximity to Canada, the Seattle region is 
increasingly a potential target for those seeking to undermine 
our way of life. Because we reside in an area so prone to 
catastrophic natural disasters and at such high risk for acts 
of terrorism, it is absolutely imperative that all those forms 
of governments, Federal, State and local, work in an integrated 
seamless manner.
    Unfortunately, as the response to Hurricane Katrina so 
dramatically exposed, we as a nation have a long way to go in 
that regard. We really should expect better from our 
government. It's for these reasons that the Subcommittee is 
holding today's field hearing. We are indeed fortunate in the 
Seattle region to have the opportunity to hear from so many 
hardworking, dedicated expert public servants on our state of 
preparedness. Your appearance is vitally important to the work 
of the Subcommittee and no doubt to the Department.
    A little more than six months ago, Peter King, Chairman of 
the full Committee on Homeland Security, personally asked me to 
chair this Subcommittee. As one of the only six freshman in the 
history of Congress to be afforded the privilege and honor of 
chairing the Subcommittee, I am pleased and happy to host my 
first field hearing in the 8th Congressional District.
    Again, I would like to thank the witnesses and the audience 
for being with us. I now yield to the ranking member of the 
Subcommittee, Mr. Pascrell.
    Mr. Pascrell. Thank you, Chairman Reichert, for holding the 
first of two hearings dedicated to examining emergency planning 
and preparedness among Federal, State and local officials. And 
when I look at the basic topics that we're going to get into 
today, what are our strengths and what are our weaknesses, and 
what is the relationship between the different levels of 
government, we're trying to spend a lot of time on that, 
because we think it's critical.
    We know of the lack of communication at 9/11, and we want 
to see how far we've come since then. Are we working together 
in the first place? A lot of things pass for working together 
when you look at it and scratch the surface to find out the 
folks on the local level don't have any idea because we haven't 
really shared with them.
    Dave and I believe in the same philosophy on this. We 
believe in a bottom-up approach to protecting our kids and our 
families and our neighborhoods. It's been an honor for me. And 
David knows that I can be as partisan as the next person, but 
David knows I care for this guy. He's been a great chairman. 
You have a great congressman here. He works very, very hard for 
all the people. And he knows, if I didn't mean it, I wouldn't 
say it. I don't care where I would be.
    Mr. Reichert. That's true.
    Mr. Pascrell. So this is a serious concern for both of us. 
If and when terrorists or natural disaster strike our homeland, 
it would be those on the local level that are most affected. We 
forget that many times when we get caught up in the aura of the 
dome.
    Homeland Security consequently must begin at home, in our 
communities and our cities. It is imperative that the men and 
women on the frontlines are fully coordinated with State and 
Federal officials, that robust communication, cooperation and 
integration throughout the various spheres of our security 
apparatus exists. Lives, as you know, will depend on it.
    We live in a vast nation, so whether I'm talking about Mr. 
Dave in Washington State or Mr. Dave for New Jersey, which I 
represent, there may be many miles, 2,300, that separate us, 
but we both really want the same thing for America. We want to 
contribute to that and get out of the business of simply 
pointing fingers. Because of the sheer size of the Nation, we 
have an abundance of risks and vulnerabilities right here in 
Washington State. It's home to the potential of a variety of 
natural disasters, earthquakes volcanic eruptions, tsunamis.
    In additional, two large container ports and a close 
proximity to the northern border, the area is considered to be 
a potential terrorist target. Dave and I both agree that, 
whatever dollars are spent by the Federal Government, the more 
we can base it on risk to the communities, the better off we 
will all be. It will work more efficiently and more 
effectively.
    In New Jersey, which we'll be visiting for a second hearing 
down the road, we have a number of challenges. It's close to 
New York City, and that presents its own share of risks. It has 
a complex array of infrastructures throughout the region.
    Both of our congressional districts have many things in 
common. First and foremost is the dedication of our first 
responders, the police, fire, EMTs, State and local officials 
who want to help protect our citizens. That's why we're here 
today, to help ensure that the Department of Homeland Security 
is effectively working with State and local agencies in 
addressing the challenges of developing and implementing their 
emergency preparedness and their response plans and their 
interoperable communication networks. We have spent vast 
hearing hours in debate and discussion on how we can improve 
communications in this country. And if one was to look 
objectively and stand back, we haven't come very far in four 
years. We have our own inability to get the agencies to reach 
out to one another. We have our own turf wars that exist on a 
Federal level. We're trying to overcome them, trying to bring 
people together.
    At the same time, we want the Federal Communications 
Commission to understand their responsibility in providing a 
spectrum so that we can elaborate upon communications.
    We're very fortunate today to have these folks that have 
come a long way. We have the Under Secretary, George Foresman, 
very well respected in emergency management. I really believe 
that. And we have some disagreements when we come to meetings, 
of course, because he represents the administration's 
standpoint. But he goes beyond that, and I want to commend him 
for the work that he's done and the patience that he's had with 
me, because I can ask too many questions at times. He doesn't 
know whether to laugh or smile. We all have faith in you, 
George, Mr. Secretary, not only your competence but in your 
passion for the responsibilities. You are well prepared for 
this job, and one of the few areas of Homeland Security which I 
feel comfortable with, even though we're a long ways from doing 
what I think should be done, and I mean that sincerely.
    I'm looking forward to an appearance or an array of 
emergency management and first responder officials, and I'm 
interested to learn what they believe are the greatest 
impediments to this.
    My local firefighters in New Jersey, my local police 
officers and EMTs back in New Jersey are concerned about more 
than the $600 million that is being cut from preparedness 
directives within the Department of Homeland Security. They 
worry about the elimination of the Law Enforcement Terrorism 
Prevention Program, the Metropolitan Medical Response System, 
and the safer firefighter grant program, which will affect 
local readiness. They have real concerns about the dramatic 
cuts in the fire grant programs which help all Americans, small 
towns and large towns, the Emergency Management Performance 
Grant Program and the various training programs within the 
department.
    Today while we discuss the need for interoperability, let's 
not forget that the administration's fiscal year 2007 budget 
also proposes to eliminate funding for the COPS 
Interoperability Grant Program on the grounds that the program 
is redundant with the efforts of the Department of Homeland 
Security.
    We're not here to discuss the COPS program, because you 
wouldn't be able to shut me up. But we are here to talk about, 
legitimately I think, interoperability programs within that. 
The Department of Homeland Security does not have a dedicated 
Interoperability Grant Program, so I look forward to hearing 
how the witnesses are using their limited resources to address 
a major priority discussing how we can help improve the 
directives. Dave and I want to be helpful to you. And I think, 
please believe us in our actions.
    I welcome hearing from today's witness, a group of 
dedicated public servants who are addressing critical 
challenges. I salute them and look forward to a lively 
discussion about issues of enormous national importance.
    And in conclusion, we know that every time we act in the 
Congress of the United States, there is a ripple effect. There 
are consequences to what we do. I take that extremely 
seriously, and I know David does, and I'm honored to work with 
him. And thank you, Mr. Chairman, for convening here.
    Mr. Reichert. Thank you, Mr. Pascrell. I want to just 
mention first, before we get into witness testimony, that this 
kind of gives everyone a little bit of a flavor of how hearings 
are held if you haven't had the opportunity to be in 
Washington, D.C. and be present at a hearing.
    Usually there's a number of other members around the table 
and some witnesses all anxious and eager and ready to answer 
questions. They can't wait for the friendly exchange that 
usually occurs. I am eliciting a smile here from Mr. Foresman 
as he focuses on his notes.
    I think there's going to be--it's interesting. You know, I 
want to make this a very comfortable and relaxed atmosphere. 
We're in Orting, Washington, the 8th District. And both Bill 
and I, and I know George, the Under Secretary and all the 
witnesses here, are pleased to be here. But I want to just 
emphasize how important this hearing is. We aren't going 
through the motions here to gather some news coverage. We are 
here today because we're going to gather some facts, listen to 
some people who know their business.
    And we are crafting legislation, as Bill said, that will 
change the way you all in this room do business, how you do 
your jobs, how we as American citizens depend upon you who are 
our first responders and who are working with first responders 
in emergencies to protect our community. This is important 
stuff, and I just want to reemphasize that. Sometimes we lose 
focus here. This is really important. So thank you again, Mr. 
Pascrell, for taking the time to be here.
    And first, we'll introduce a panel. The first witness that 
will speak today is the Honorable George Foresman, Under 
Secretary of Preparedness for the Department of Homeland 
Security. We also have with us Mr. Jim Mullen, Director of the 
Emergency Management Division of Washington Military 
Department; Mr. Steven Bailey, Director of the Pierce County 
Department of Emergency Management; Chief Mario Trevino, Chief 
of the Bellevue Fire Department; and Mr. William Mitzel, Risk 
Control Specialist, Home Office Commercial Lines, the Unigard 
Insurance Group.
    The Chair now recognizes the Honorable George Foresman to 
testify.

STATEMENT OF GEORGE FORESMAN, UNDER SECRETARY OF PREPAREDNESS, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Good morning, Chairman Reichert and 
Congressman Pascrell.
    I very much want to acknowledge my appreciation for your 
kind remarks. And the one thing I will offer is, the Committee 
and both of you as leaders on the committee continue to provide 
good guidance, counsel, and appropriate oversight to us in the 
Department of Homeland Security, and I appreciate that. Thank 
you both for the opportunity to appear today before the 
Subcommittee to discuss the important national preparedness 
initiatives in the Department of Homeland Security. I'm 
indebted to you to be here today, and I'm humbled by the fact 
I've been able to join the local and State officials who are on 
the frontline of making America safer and more secure.
    I'm particularly appreciative of this field hearing. It 
allows us time with our local, State and private partners in 
their communities and on their turf. This type of exposure is 
critical toward constantly strengthening and improving our 
national approach to preparedness. A national approach, not 
Federal but national, requires the integration of levels and 
functions of government, the public and the private sector and 
the American people. I would just offer that this provides a 
parallel opportunity; the more questions that you ask them, the 
more that I will learn to be able to take back to Washington.
    As I have mentioned in the previous testimony before the 
Committee, over the past 20 years, our Nation has not had a 
comprehensive national approach to preparedness that was 
dynamic and flexible enough to react to changes in risk.
    The Department of Homeland Security was created as an all-
hazards department with a mission to guide the development of a 
model to steer a national preparedness effort to link all the 
things that we do to deter, prevent, protect, respond, recover 
and mitigate against a wide range of hazards. It is important 
to recognize that this model is a shift from previous practices 
in which preparedness efforts were narrowly focused on either 
terrorism and natural disaster preparedness, but not both and 
not in an integrated fashion.
    Our difference in comprehensive approach requires a change 
in the way that we think about preparedness. It is not simply a 
step in the continuum what we do to manage the risks to the 
homeland or the function of readiness. Rather it is the 
umbrella over the continuum.
    Simply put, preparedness is how we will bring together the 
independent efforts to build one national preparedness system. 
It is how we make the independent interdependent.
    It is essential to understand that, under our current 
evolving risk management principles, preparedness is not just 
an administrative function within the Department of Homeland 
Security. Our direction and mission applies to each office and 
component within DHS across the Federal areas and communities, 
and most importantly with our State, local and private sector 
partners and the most critical element, the American people. 
Our job is to increase synchronization and integration within 
and among all of these elements. It is a shared national 
mission, not simply a Federal activity. To strengthen our 
national preparedness, we must focus more acutely on connecting 
the unconnected to achieve unity of effort. In order to achieve 
a broader and truly national preparedness effort, the 
Department must coalesce to lessen the many disparate issues at 
all levels of government and in the private sector while 
preserving critical missions, cultures and identities of 
individual organizations.
    Central to our efforts is the establishment of National 
Preparedness Integration Program, or NPIP, which includes a $50 
million initiative in our DHS fiscal year 2007 budget request. 
The NPIP will support our national and departmental efforts by 
providing a centralized mechanism for promoting the alignments 
of preparedness efforts across all levels of government, the 
public and private sectors. Failure to do so will lessen our 
ability to support the men and women working every day in our 
communities to keep American safe and secure.
    By developing a common doctrine and approach to planning 
and training exercises, risk management and assessments, we 
will unite and integrate currently independent activities 
across all levels of government. Three examples: When an 
earthquake or lahar, as you mentioned earlier, or a terrorist 
attack could impact the people and infrastructure in this 
region, we must be sure that how we respond, how the Federal 
Government supports safety in communities is clear, coordinated 
and consistent irrespective of the hazard that threatens to 
cause the damage and destruction. At the end of the day, the 
local public safety officials charged with preventing a 
mitigation and response of the recovery wants one format 
process for getting Federal help. Imagine if we as citizens had 
to call different numbers and follow different procedures if we 
were dealing with all auto accidents or fire versus a crime 
versus a medical emergency. This kind of standardization will 
allow us to better measure performance so that we can 
individually and collectively assess our progress as a 
community and state and as a nation. It will allow us to 
evaluate preparedness from state to state and city to city as 
well as nationally.
    The creation of the NPIP will enable us to build the 
national preparedness system that was envisioned when Congress 
created DHS. Critically it will draw on all responsible 
parties' plans and budgets for preparedness. Without such a 
system, it will be impossible to answer the question of how 
much better prepared are we today and how much do we continue 
to be. How better prepared should we be, and how far do we have 
to go? Most critically we need to have an integrated approach 
nationally. The NPIP will provide for this integrated approach.
    I would also note that our national catastrophic planning 
project is currently not as integrated as it should be. 
Hurricane Katrina was a vivid reminder of this. We trust that 
existing plans across all levels of government are adequate and 
feasible, but we do not have a systematic way to ensure that 
they are fully synchronized on a day-to-day or region-to-region 
or a jurisdiction-to-jurisdiction basis. This results in a 
fragmented response to disasters, particularly catastrophic 
events.
    Additionally, the core principle of the national response 
plan may not be fully operationalized which is needed quickly 
at the Federal, State or local level. We need a national 
planning system that will provide the means to achieve 
synchronization both vertically and horizontally to ensure that 
the Nation's planning at the local, State and Federal levels 
are organized and well resourced to be able to effectively 
respond to a wide variety of threats that we face on a day-to-
day basis.
    In closing, Mr. Chairman and Congressman Pascrell, the 
President and Congress have consistently identified the need 
for specific and measurable goals for preparedness, national 
cooperation, the application of the systems where the need and 
risk is the greatest, determination of the central capability 
of community need, and advanced planning processes that ensure 
plans are adequate and achieve the required synchronization to 
ensure goals interoperability.
    The National Preparedness Integration Program and the work 
of the preparedness directives will allow the Department to 
meet each of these challenges and will ensure a safer and more 
secure America; and most importantly, will ensure more prepared 
communities.
    Thank you once again for providing me the opportunity to 
speak with you all today and for your continued support and 
valued input. I look forward to answering any questions that 
you may have. Thank you.
    [The statement of Mr. Forseman follows:]

             Prepared Statement of Hon. George W. Foresman

Introduction
    Good morning Chairman Reichert and Congressman Pascrell. Thank you 
for the opportunity to appear before this Subcommittee to discuss 
important preparedness initiatives within the Department of Homeland 
Security (DHS).
    As you may have observed, over the past 20 years America's approach 
to preparedness has not been sufficiently comprehensive or dynamic and 
flexible enough to react to changes in a continuum of risk. National 
preparedness efforts have too often focused on either terrorism 
planning and prevention or natural disaster preparedness and response.
    In the initial years of the newly created Department, significant 
emphasis was placed on terrorism-related threats, in recognition of the 
post-9/11 environment. However, as very evident today, it also had 
acquired the all-hazards legacy elements associated with many of the 
components assigned to the Department and the preparedness linkages and 
responsibilities associated with our State, local, and private sector 
partners. Thus, we must take a comprehensive approach in our national 
preparedness planning efforts.
    Therefore, I would like to share with you my vision and goals for 
strengthening America's preparedness and how these initiatives will 
allow us to meet these goals in support of the overall mission of the 
Department.
    Last July, the Preparedness Directorate was created as a result of 
Secretary Chertoff's Second Stage Review. This newly formed Directorate 
was given the distinct mission to coordinate the full range of our 
national capabilities to prevent, protect against, and respond to acts 
of terror or other disasters.
    For the reasons above, my vision and goals for national 
preparedness require a change in the way we think about preparedness. I 
see it more as a transformation of ``how'' we prepare as being 
essential to ensuring the safety and security of our citizens in the 
21st Century.
    This change in thought dictates that preparedness should be 
understood not simply as a step in the continuum of what we do to 
manage risks to the homeland or the function of a single entity. 
Rather, it is the umbrella over the continuum. Simply put, preparedness 
is how we will bring together independent efforts to build one national 
preparedness system.
    In addition, it is essential to understand that under our current 
evolving risk management principles, Preparedness is not just an 
administrative function within the Department of Homeland Security. Our 
mission applies to each office and component within DHS, across the 
federal interagency community as well as our State, local, territorial, 
tribal and private sector partners, and the most critical element--the 
American people. Our job is to achieve integration and synchronization 
within all of these elements. It is a shared national mission, not 
simply a Federal activity.

Preparedness Directorate Mission
    The mission of the Preparedness Directorate is to define, 
strengthen and measure preparedness capabilities of the Nation to 
prevent, protect against, respond to and recover from terrorist 
attacks, major disasters and other emergencies.
    I believe that to achieve a broader and truly national 
preparedness, the Department and our State, tribal, local, and private 
sector partners must coalesce, integrate, and synchronize many 
disparate initiatives while preserving critical missions, cultures, and 
identities of individual organizations. Therefore, integration, 
synchronization, and communication become the foundations to our 
national preparedness efforts.
    Additionally, the Directorate will develop, foster, and instill a 
national preparedness culture--an imperative established by the White 
House and the Congress, and an expectation of the American citizens. 
This will require extensive leveraging of existing DHS Headquarters and 
field component resources and program activities. It will also require 
the dedicated encouragement and leveraging of other Federal 
interagency, State, local, tribal, and private sector resources to 
facilitate seamless national preparedness and effective cooperative 
partnerships.

National Preparedness Integration Program
    Central to preparedness integration and synchronization is the 
establishment of the National Preparedness Integration Program (NPIP), 
which is included as a $50 million initiative in the President's Fiscal 
Year 2007 Department of Homeland Security Budget Request.
    The purpose of the NPIP is to improve the Nation's preparedness 
posture--a national safety and security imperative. The basic premise 
of the NPIP is that effective national preparedness requires an 
integrated and synchronized approach among Federal, State, local, 
tribal and private-sector partners to share information and to plan, 
train, and exercise consistently. The current federal level approach to 
information sharing, planning, training and exercising is inconsistent 
across departments and agencies, leading to non-integrated 
preparedness.
    As the preparedness enabling element of the Office of the Under 
Secretary for Preparedness, the NPIP will oversee the national 
integrated preparedness efforts to ensure coordinated strategic 
partnering and development of standard preparedness doctrine. This 
reflects the vision outlined in Homeland Security Presidential 
Directive Eight, released on December 17, 2003.
    The Department requires a lead preparedness integrator such as the 
NPIP to support national preparedness transformation. This function 
will be accomplished at the Preparedness Directorate level and 
adequately resourced to ensure synchronization and integration of 
national preparedness initiatives and requirements.
    NPIP will link requirements with emerging technology, doctrine, and 
operational requirements, techniques, and procedures to ensure the 
integration, interoperability, and operational effectiveness of 
homeland security capabilities. NPIP staff will work closely with the 
Homeland Security Institute and DHS Centers for Excellence to ensure 
preparedness integration projects and requirements are studied through 
experiments, and tested through combined training and exercise events 
conducted by the Directorate.
    Preparedness standardization also allows us to better measure 
performance so we can individually and collectively assess our 
progress, allowing us to evaluate preparedness nationally, from region 
to region, state to state, and city to city.
    Therefore, through the NPIP, we can better develop regional and 
local resilience to terrorist attacks, natural disasters, and other 
emergencies.

Building a National Preparedness System
    By establishment of the NPIP, we will enhance our national 
preparedness system, which allow us to better answer the question, 
``What risks should we prepare for and how well must we prepare?'' 
Given the range of roles and responsibilities of DHS, it has proved 
difficult to ensure homeland security capabilities are internally 
coherent and collectively competent. These currently bifurcated 
relationships must be organized within a fully integrated and adaptable 
national preparedness system.

    A fully integrated national preparedness system will result in:
    <bullet> Strategic and operational flexibility that accommodates 
risk and uncertainty;
    <bullet> A capabilities-based framework that organizes the nation 
to act in concert, and with the speed and operational effectiveness 
required for effective prevention and response; and
    <bullet> The means to measure readiness by an individual entity or 
in aggregate.
    This national preparedness system will improve the nation's 
homeland security and fully leverage the domestic all-hazards emergency 
response system for natural hazards and other emergencies.
    State, local, tribal and private sector partners are not an adjunct 
to national preparedness system development. Instead, they are integral 
to development of a functional and successful system--bringing 
partnership commitment and participation to sustain and achieve 
sufficient preparedness capacity to ensure the Nation can effectively 
deal with catastrophic events.

    Some of the critical initiatives supporting this system are:
    <bullet> Finalizing a single national and regional risk assessment 
methodology to identify the types and magnitudes of risks we face.
    <bullet> Encouraging capability-based planning that supports 
synchronization both vertically (across levels of government) and 
horizontally (across agencies at each level of government).
    <bullet> Provide risk-based allocation of Federal assistance to 
state and local governments and other funding recipients and targeted 
towards building adaptable and interchangeable target capabilities, 
including capabilities that strengthen citizen resilience.
    <bullet> Finalize a system of preparedness measures to assess 
national, regional, and local preparedness.
    Several of these initiatives are already underway in DHS and other 
Federal agencies. The NPIP will help ensure unity of effort and 
consistency.

Nationwide Plan Review
    The NPIP will also support follow-on efforts for the Nationwide 
Plan Review mandated by President Bush following Hurricane Katrina.
    DHS was directed by the President to conduct an immediate review of 
emergency plans for the nation's major cities. Congress subsequently 
tasked DHS and the Department of Transportation (DOT) to review plans 
for all States and territories and 75 of the nation's largest urban 
areas, with particular emphasis on evacuation planning. DHS launched a 
two-phase review process in cooperation with DOT.
    The overall objective of this two-phase review is to assess the 
adequacy and feasibility of the nation's emergency plans to deal with 
catastrophic disasters, whether natural or manmade.
    The first phase involved a self-assessment of plans by States, 
territories and urban areas/major cities using guidance and criteria 
provided by DHS. The Department, through Preparedness Information 
Bulletin Number 197 issued November 23, 2005, provided comprehensive 
guidance to the participating jurisdictions on the types of information 
required for the self-assessment. The Information Bulletin posed a 
number of questions designed to determine the status of emergency 
planning efforts within the participating jurisdictions. It should be 
noted that participation in the Nationwide Plan Review is a 
prerequisite for receipt of Fiscal Year 2006 DHS Homeland Security 
grant funds.

    The Department received responses from 98% of the participants. DHS 
provided a report summarizing Phase I results to Congress on February 
10, 2006. The report included the following summary of findings:
        <bullet> States' and urban areas' plan components are generally 
        consistent with existing Federal planning guidance such as SLG 
        101 (State & Local Guidance 101) and voluntary standards such 
        as NFPA 1600;
        <bullet> For States and urban areas, having plans that are 
        consistent with existing Federal planning guidance and 
        voluntary standards does not translate into confidence in those 
        plans to manage catastrophic events;
        <bullet> The majority of States and urban areas have exercised 
        their plan components within the past two years, though updates 
        to plan components have not been as consistent;
        <bullet> Plan components that have been updated recently are 
        more likely to be consistent with existing Federal planning 
        guidance and voluntary standards;
        <bullet> Plan components that have been updated recently are 
        more likely to be considered adequate for managing catastrophic 
        events; and
        <bullet> More populous States tend to have plan components that 
        are consistent with existing Federal planning guidance and 
        voluntary standards.
    The Phase I results suggest the need for more common planning 
assumptions and methods; stronger integration of grant funding with 
operational needs; and a common framework for assessing and reporting 
on plans' effectiveness.

    The second phase of the Nationwide Plan Review is currently 
underway and based on the Phase I findings, four areas were identified 
as requiring special emphasis in Phase II. These are customarily the 
most resource-intensive components of emergency plans and include the 
planning elements of:
        1. Mass Evacuation
        2. Mass Care
        3. Resource Management
        4. Health and Medical.
    During phase II, Peer Review Teams comprised of former state and 
local emergency management and homeland security officials will visit 
131 States, Territories, and urban areas to jointly validate self-
assessments, determine requirements for planning assistance, collect 
best practices, and recommend corrective actions. The Peer Review Teams 
will work to jointly validate the self-assessments and determine 
requirements for planning assistance, and recommend corrective actions 
for those plans that are determined to require some level of change.
    Perhaps just as important, these teams will collect best practices 
to disseminate to our State and local partners. Through the sharing of 
best practices we hope to achieve additional progress in the effort to 
improve catastrophic emergency planning processes. The results of the 
site visits and specific recommendations to strengthen catastrophic 
planning will be provided in a final report to the President and 
Congress by May 31, 2006.
    There's no doubt that our national catastrophic planning process is 
disjointed and unsystematic. We have had to trust that existing plans 
across all levels of government are adequate and feasible, but we do 
not have a systematic way to ensure they are, or that they are 
synchronized. When I use the word ``synchronized,'' I mean both a 
process and an effect--that plans are related in purpose, place and 
time, and that together, our combined plans and pooled capabilities 
achieve the effect we want: ``the city is evacuated'' or ``the 
terrorists are eliminated.''
    The existing Federal, State, and local preparedness and operational 
plans are not sufficiently coordinated, resulting in a fragmented 
response to disasters, particularly catastrophic events. Additionally, 
the core principles of the National Response Plan (NRP) have not been 
fully operationalized and de-conflicted at the Federal, State, or local 
levels.
    The Department hopes to address the needs identified by States and 
localities during the course of the Nationwide Plan Review, in part, 
through the establishment of the NPIP.

Close
    In closing, Mr. Chairman, the President and Congress have 
consistently identified the need for specific and measurable goals for 
preparedness, national cooperation, application of assistance where the 
need is greatest, determination of essential capabilities that 
communities need, and advanced planning processes that ensure plans are 
adequate and feasible and achieve required synchronization.
    HSPD-8 ``National Preparedness,'' Hurricane Katrina lessons 
learned, and the strategic requirements of the war on terrorism require 
transformation of national preparedness--a process that shapes the 
changing nature of homeland security preparedness through new 
combinations of concepts, capabilities, people, and organization that 
exploit the Nation's advantages and protect against our vulnerabilities 
by building and sustaining national resilience.
    The benefits of transforming national preparedness include: 
synchronization with national policy; a strategic approach to national 
preparedness transformation; and, achievement of the Directorate's 
vision of creating, through NPIP, a fully integrated national 
preparedness system.
    And lastly, this approach ensures that national preparedness 
transformation will not be jeopardized and the credibility of the 
Directorate and Department will not be undermined; that the ambitious 
shaping of homeland security preparedness will not be impeded; and that 
we do not miss the historic opportunity to act and correct the 
shortcomings in the Katrina emergency response as well as in the 
protection and defense of the United States from terrorism.
    Thank you once again for providing me the opportunity to speak with 
you today and for your continued support to the Department.
    I look forward to answering any questions you may have.

    Mr. Reichert. Thank you, Under Secretary. The Chair now 
recognizes Mr. Mullen.

   STATEMENT OF JAMES MULLEN, DIRECTOR, WASHINGTON MILITARY 
           DEPARTMENT, EMERGENCY MANAGEMENT DIVISION

    Mr. Mullen. Thank you, Chairman Reichert and Congress 
Pascrell, for allowing me to speak to the Committee as part of 
the national discussion about the state of our preparedness.
    Washington State's all-hazards management system predates 
9/11 by several decades, including the statewide homeland 
security stratagem that predates 9/11 by two full years. Our 
system incorporates broad public and private representation. It 
is this system that develops and tracks the all-hazards State 
Homeland Security Strategic Plan. The Strategic Plan is the 
foundation of Team Washington's enterprise approach to disaster 
preparedness.
    We have excellent working relationships with our local 
colleagues within the State. This is not to say that we agree 
with each other on everything, but we have mutual respect. We 
interact honestly in an atmosphere of trust and mutual respect 
to the challenges each of us faces. In emergency situations, as 
well as during difficult day-to-day issues, that bond is held. 
With our regional and Federal colleagues, I can say that we 
have an excellent relationship as well, but miss the days when 
they were our link to the Federal decision-making process. We 
trust them, they know us, but they are often cut out of the 
dialogue by their own command chain.
    I've seen some positive signs of that due to the excellent 
leadership that Region 10 gets at FEMA, but while my remarks 
may--as we proceed may seem a little pointed, I must stipulate 
that the regional leadership must be given as much respect in 
DC as we give it here. We have a great respect for them.
    Interoperability is one of the most recurrent themes 
nationally, and properly so. The State of Washington has a 
State Interoperability Executive Committee established by the 
legislature to address this issue. Long-term solutions are 
complex and potentially very costly. Although technological and 
administrative challenges and long-term financing issues for 
statewide interoperability are very real, our emphasis remains 
on interoperability between first responders. Interoperability, 
like I say, is as much a management as a technological term. 
There must be willingness at all levels to coordinate, 
collaborate and cooperate.
    Emergency Management Performance Grants, EMPG, are the 
Federal match for State and local investments in emergency 
mitigation, preparedness, response and recovery. Although EMPG 
is based on a 50/50 match--50 percent Federal, and 50 percent 
State and local--the reality is that State and local 
governments are carrying these burdens at an 80/20 ratio. It is 
a cruel myth that States and locals are simply waiting for 
Federal dollars before initiating their own efforts.
    Ironically, EMPG is the only DHS grant program that 
requires any match at all of States and locals, and yet instead 
of leveraging the local-State investment, the DHS strategy has 
been to inflict death by a thousand cuts on the one program 
that provides the best chance to prepare communities to respond 
in any type of disaster. This flies in the face of any 
reasonable assessment of what must be done to assure that local 
and State planning and coordination is enhanced.
    DHS still lacks emergency management expertise. Decisions 
are made daily by DHS about deadlines and program application 
requirements that impose an unnecessary burden on an already 
overwhelmed local and State emergency management 
infrastructure. And DHS still has difficulty in meeting its own 
deadlines for providing information so grant applications can 
be completed.
    I cannot be certain that Federal disaster assistance will 
be provided in a timely manner, nor that the Federal assistance 
will provide what I need when I need it. I can't be certain 
that my Region 10 Federal counterpart, in whom I have great 
confidence, will be kept in the loop of information, even when 
he serves as the Federal Coordinating Officer. In our next 
disaster, I may be devoting time to damage control from the 
effects of the Federal effort rather than focus on victims, 
which would be my preference.
    Post Katrina, States must be prepared to work to preserve 
Federal commitments to assist victims. There exists the 
distinct possibility that DHS may renege on commitments and 
parse the words of written assurances.
    The Katrina experience, I might say, was merely another 
milestone in the continuing degradation of the Nation's 
capacity to mitigate, prepare, respond and recover with respect 
to disasters. We've seen this happening over the years. FEMA 
isn't FEMA anymore.
    Our Katrina is most likely a major earthquake. That's why 
mitigation and preparedness efforts have taken hold in our 
State. Since we won't have four days to observe our disaster 
approaching, those things that we do to offset consequences and 
ready our citizens are of critical importance.
    In one version of the Katrina-style event, a subduction 
zone quake could create a tsunami threat within 25 minutes of 
our coastal communities. We are implementing a coordinated 
warning system for coastal communities for tsunamis. This will 
include public education workshops, training and exercises. We 
do have evacuation plans to support moving people quickly away 
from an approaching lahar or a tsunami. We in this State must 
improve our ability to care for a sizable number of citizens 
when they must move away from a dangerous environment.
    A major quake along the Seattle Fault could trigger 
significant injuries or loss of life. We would see significant 
damage to the transportation and commerce networks in our 
State. No part of our economy will be unscathed.
    A great deal of cooperative work has positioned Washington 
State to respond effectively, but clearly the momentum and 
collaboration needs to continue. We need to continue to build 
on our partnerships with local government and the private 
sector, because for a considerable time after our earthquake, 
we will be on our own. A major commitment of EMPGs beyond the 
annual levels we have seen would be an extremely helpful 
development if it were to be administered by emergency 
management professionals minus the constraining influences that 
characterizes the Homeland Security Grant Program requirements.
    We will be stronger if and when DHS and FEMA rights itself, 
but even if that happens some day, we know that we have our own 
work to do out here. With increased planning exercise and 
training support, we can make great strides to improve the 
overall capacity of local and State government. We will carry 
our share of that burden.
    We also need to continue to reach out to DHS and FEMA. And 
when they extend a hand, as they have been doing recently, we 
need to grab it. We should not just complain. We must keep 
offering our participation and our advice to help fix the 
problems we've identified. Mere consultation isn't sufficient. 
True partnership allows debate, discussion and the merging of 
expertise before deadlines are established and before policies 
and requirements become etched in stone. We look forward to any 
such exchange with DHS.
    None of these issues are unique to my State. However, 
because I think of some earlier failures in leadership and the 
demolition of existing national emergency management structure 
with little analysis or consultation, we will need time to 
restore a national program managed by professionals and 
possessing the necessary authority and expertise to not only 
improve the situation but recognize those positive 
contributions the DHS model has brought, including the State 
and local cooperation. But at the same time, we need to restore 
and enhance what was the FEMA mission until recently. It can be 
done, but it will have to be done by the professional emergency 
management community and the public safety sector. Thank you.
    [The statement of Mr. Mullen follows:]

          Prepared Statement For the Record of James M. Mullen

Introduction
    Thank you, Chairman Reichert, and Ranking Member Pascrell for 
allowing me to provide you with a statement for the record on Emergency 
Planning and Preparedness: Federal, State and Local Coordination. I'll 
try to highlight key issues that I believe need to be raised as part of 
the national discussion about the state of our preparedness.
    Washington State's all-hazards management system predates 9/11 by 
several decades, including a statewide Homeland Security stratagem that 
predates 9/11 by 2 full years. Our system incorporates a broad public/
private representation on a statutorily created Emergency Management 
Council and a statewide Homeland Security Committee (each of which 
meets every 60 days. These groups liaise with the Governor's Domestic 
Security Executive Group (comprised mostly of senior cabinet level 
public safety officials) which meets on a weekly basis, advising the 
Governor on the state's disaster readiness and on state wide disaster 
issues ranging from tsunami preparedness to homeland security grant 
programs involving local, state and private sector participants. It is 
this system that develops and tracks the State's Homeland Security 
Strategic Plan, which is truly an all hazards document. The Strategic 
Plan is the foundation of Team Washington's enterprise approach to 
disaster preparedness.

Status of intergovernmental collaboration
    We have excellent working relationships with our local colleagues 
within the state. That is not to claim we concur in all things, nor is 
it to suggest interactions are smooth all of the time. Interactions are 
unfailingly honest, and this has been helpful during emergency 
situations, as well as in resolving difficult day to day issues. We 
have taken the time to develop mutual respect for the professional 
capabilities and challenges each government level encounters. With our 
regional federal colleagues, I can say that we have an excellent 
relationship as well, but miss the days when they were our link to the 
federal decision making process. We trust them, they know us, but they 
are often cut out of the dialogue by their own command chain.

Interoperability
    Interoperability is one of the most recurrent themes in any 
credible analysis of an effective and robust emergency management 
system. The State of Washington has a State Interoperability Executive 
Committee established by the Legislature, to address this issue. 
Although technological and administrative challenges, and long term 
financing issues for state wide interoperability, are very real, it 
remains our primary focus to support first responders, assuring that a 
deputy sheriff from one county can communicate at an incident 
effectively with a fire commander from the neighboring county without 
missing a beat. Interoperability is as much a management as a 
technological term--there must be willingness at all levels to 
coordinate, collaborate and cooperate.
    We are also enhancing our logistical capability, first coordinating 
more effectively within the Military Department between the resources 
of the Emergency Management Division and the National Guard, and 
branching out this past year to work with local logistics planners to 
devise a seamless exchange of information about available resources.7

State and Local Planning and Coordination Capability
    Emergency Management Performance Grants (EMPG) are the federal 
``match'' for state and local investments in emergency mitigation, 
preparedness, response and recovery. Although EMPG is based on a 50/50 
match (50% federal to 50% state/local), the reality is that state and 
local governments are carrying these burdens at an 80/20 ratio. It is a 
cruel myth that states and locals are simply waiting for federal 
dollars before initiating their own efforts.
    Ironically, EMPG is the only DHS grant program that requires any 
match at all of states and locals, and yet instead of leveraging the 
local--state investment, the DHS strategy has been to inflict death by 
``1000 cuts'' on the one program that provides the best chance to 
prepare communities to respond in any type of disaster. This flies in 
the face of any reasonable assessment of what must be done to assure 
that local and state planning and coordination is enhanced.

Impediments to Disaster Response in a Presidential Declaration of 
Emergency
    DHS still lacks emergency management expertise. The federal 
performance we have seen in exercises and real time events and the 
policies we must endure suggests that the next major emergency response 
may be aggravated rather than alleviated by DHS.
    On a daily basis, decisions are made by DHS about deadlines and 
program application requirements that impose an unnecessary burden on 
an already overwhelmed local and state emergency management 
infrastructure. And, DHS has difficulty in meeting its own deadlines 
for providing information so grant applications can be completed.
    During a disaster, I cannot be certain that federal disaster 
assistance will be provided in a timely manner, nor that the federal 
assistance DHS/FEMA provides will be what I need, when I need it. I 
can't be certain that my Region 10 federal counterpart, in whom I have 
great confidence, will be kept in the loop of information, even when he 
serves as the Federal Coordinating Officer. This means that in our next 
disaster I may be devoting time to damage control from the effects of 
the federal ``effort'' rather than focus on victims, which would be my 
preference.
    Post Katrina, states must be prepared to work to preserve federal 
commitments to assist victims. There exists the distinct possibility 
that DHS may renege on commitments, and parse the words of written 
assurances.
    The Katrina experience was merely another milestone in the 
continuing degradation of the nation's capacity to mitigate, prepare, 
respond and recover with respect to disasters. We in emergency 
management have seen this condition unfold over the past several years. 
FEMA isn't FEMA any more.

Our Katrina
    Our ``Katrina'' is most likely a major earthquake. That's why 
mitigation and preparedness efforts have taken hold in our state: since 
we won't have four days to observe our disaster approaching, those 
things that we do to offset consequences and ready our citizens are of 
critical importance.

Coastal Communities
    In one version of a Katrina style event, a subduction zone quake 
could create a tsunami threat within 25 minutes for our coastal 
communities.
    We are implementing a coordinated warning system for coastal 
communities for tsunami. This will include public education workshops, 
training and exercises.

Evacuation
    We do have evacuation plans to support moving people quickly away 
from an approaching lahar or a tsunami. We in this state must improve 
our ability to care for a sizable number of citizens when they must 
move away from a dangerous environment.

Seattle Fault
    A major quake along the Seattle Fault could trigger significant 
injuries or loss of life. We would see significant damage to the 
transportation and commerce networks in our state. No part of our 
economy will be unscathed.

Immediate Future
    None of these vulnerabilities is a surprise. A great deal of 
cooperative work has positioned Washington State to respond 
effectively, but clearly the momentum and the collaboration needs to 
continue. We need to continue to build on our partnerships with local 
government and the private sector, because for a considerable time 
after our earthquake we can expect to be on our own. A major commitment 
of EMPG beyond the annual levels we have seen would be an extremely 
hopeful development, if it were to be administered by emergency 
management professionals, minus the constraining influence that 
characterizes the Homeland Security Grant Program.
    We will be stronger if/when DHS/FEMA rights itself, but even if 
that happens some day, we know that we have our own work to do here. 
With increased planning exercise and training support, we can make 
great strides to improve the overall capacity of local and state 
government. We will carry our share of the burden.
    We also need to continue to reach out to DHS and FEMA. We should 
not just complain--we must keep offering our participation and our 
advice to help fix the problems we have identified. Mere consultation 
will not be sufficient: a true partnership allows debate, discussion 
and the merging of expertise before deadlines are established, and 
before policies become etched in stone. We look forward to any such 
exchange.
    None of these issues are unique to my state. However, because of 
the demolition of the existing national emergency management structure 
with little analysis or consultation, we will need in time to restore a 
national program, managed by professionals, and possessing the 
necessary authority and expertise to recognize those positive 
contributions the DHS model has made, while restoring and enhancing 
what has been the FEMA mission until recently. It can be done, but it 
must be done by the professional emergency management community and its 
public safety partners.
    Thank you.
    Note: while the issues below were not covered specifically in my 
oral presentation, I am prepared to discuss these with the Committee at 
any time.

Some Additional Thoughts
    <bullet> EMAC: Nationally, we need to continue to foster the 
Emergency Management Assistance Compact (EMAC) which in a state to 
state exchange sent more than 65000 civilian and National Guard 
personnel to the Gulf States. This system proved adaptable and 
flexible, and after action efforts will make the program even stronger 
in its next deployment mission.
    <bullet> Federalization: Any attempt by any Administration to 
``federalize'' a disaster response should be met with opposition from 
all quarters. This is a constitutional issue and it is uniquely 
American to insist that the state's governors control efforts within 
their own states.
    <bullet> Public Education: People in our state in earthquake hazard 
areas must be trained to drop, cover and hold, and to move to higher 
ground as soon as they can in tsunami prone areas. Similarly, given the 
frequency and history of disasters in various parts of Washington 
State, the particular emphasis on a hazard, and thus the protective 
measures the public must be schooled in, may differ. Fires, floods, 
lahars each have characteristics and protective or defensive measures 
to be conveyed. The emergency management community is uniquely 
qualified to present public education for all hazards disaster 
preparedness, and this is delivered best by local officials at the 
local government level, anywhere in the country, for any type of hazard 
that a community may face.
    <bullet> State and federal assistance and support is important, but 
it cannot be a controlling form of support. Washington State is 
developing a state wide public education strategy that can be tailored 
to any jurisdiction in the state, and will provide materials and 
technical assistance to communities. The State will work within the 
state government family to convey appropriate messaging that will 
enhance the prospects of key state personnel to be able to respond 
quickly with a high level of assurance that their own families are 
protected.
    <bullet> Exercises: A collaborative effort is underway, coordinated 
by State EMD, but with the indispensable participation of our local 
colleagues, to try to establish a rational exercise regime for the 
state of Washington. Exercises, to be effective, must be designed 
carefully, implemented appropriately, critiqued thoroughly and 
unflinchingly, and followed up resolutely to correct any gaps or 
deficiencies. If the TOPOFF 2 exercise in 2003 achieved anything at all 
in our state, it solidified relationships and built trust among a 
variety of disciplines that is invaluable in these times. The exercise 
protocols will enable us to develop capability within the State, and 
will ultimately facilitate expansion to inter state exercises, and even 
across our international border with Canada as the 2010 Olympics 
approaches.

    Mr. Reichert. Thank you, Mr. Mullen. The Chairman 
recognizes Mr. Bailey.

STATEMENT OF STEVEN BAILEY, DIRECTOR, PIERCE COUNTY DEPARTMENT 
                      EMERGENCY MANAGEMENT

    Mr. Bailey. Thank you, Mr. Chairman and Mr. Pascrell. Thank 
you for inviting me here. As a resident of the 8th 
Congressional District, I want to welcome the Chairman home. 
It's good to see him. You'll have to pardon me if in this very 
formal process I fail to address him properly, because for 
those of us in the 8th Congressional District, he's just Dave. 
And so I'll try to say ``Mr. Chairman'' today, but it's good to 
see you.
    Shortly after 9/11, within three months, Pierce County 
executive, John Ladenberg, formed the Terrorism Early Warning 
Task Force with public safety leaders throughout our county. 
That work has been working since that day to address the 
preparedness and response issues in Pierce County, and we have 
made great strides.
    And I think it's important, when we get in this debate of 
the Department of Homeland Security and the FEMA issues and a 
lot of the negative press that we see, we have made great 
strides in this county in terms of public safety. And I 
certainly want to thank the Congress for the support they have 
given us. It has made specific and drastic improvements in 
public safety in our community.
    We have great leadership. Jeff Jensen, the Director of the 
Emergency Management for the City of Tacoma is here; Sheriff 
Paul Pastor, the Sheriff of Pierce County, is here, and they 
are all actively involved.
    We've had a couple of events recently that have 
demonstrated that. We had an active shooter incident in the 
Tacoma Mall several months ago. I believe we had fifteen 
different jurisdictions respond to that in support of the 
Tacoma Fire and Police Department who did an excellent job 
resolving that situation. But I think it did demonstrate some 
of the improvements we've made in public safety in this 
community.
    Then just last week we had a two-day drill--health drill, 
biological attack involving the CDC and the State Department of 
Health and Emergency Management and our local community. And 
once again, we demonstrated clearly that we have made important 
strides in preparedness and operations at the community level. 
It's the only way we will survive as a community is to continue 
to work together. We simply don't have the resources to deal 
with these incidents on our own.
    And of course, another important issue is interoperability 
communication. There again, we have made some strides with new 
technology. Under a grant, one of the Federal grants, we were 
able to purchase a new communications vehicle for this county. 
It's got technology in it that allows us to commonize the radio 
frequencies. We used that at the Tacoma Mall incident so that 
all of the fifteen responding jurisdictions could talk to one 
another. It works. It isn't seamless. It would cost this county 
a great deal of money to become seamless, money that we do not 
have. And of course, as you've said, the frequencies aren't 
available even if we had the money. So those are issues that we 
are really concerned about.
    The real issue that I really want to stress here--and it's 
really following up on some things that Mr. Pascrell said--is 
about community involvement. One of the things, because I've 
been in this business a long time and people assume I may know 
something, is I get a lot questions about, what are the ten 
lessons of Hurricane Katrina? Probably, at my age, I can't 
remember ten things anymore, so I have to boil it down to one. 
And that one lesson for me out of Katrina is the expectation of 
the public for us to meet their needs. It's almost like they 
think we will be there 20 minutes after the event with a hot 
plate of food, a warm blanket and a check for $500. If you went 
to the major 911 center here in Tacoma today, you would see 
flashing on the dispatch screen 911 calls that are waiting for 
law enforcement officers to clear from another event so that 
they can respond to the new call. We simply are not meeting the 
daily law enforcement, fire and EMS demand in our community; 
and that is the reality. And it creates this huge gap of 
expectation of the public and our ability to respond. Here in 
Orting we do not have a warehouse with a hundred firefighters 
and a hundred police officers sitting waiting for the next 
disaster.
    So one of the steps we've taken here in Pierce County is a 
community program called Pierce County Neighbor Emergency 
Teams, PC-NET. It is training and equipping neighborhoods and 
individuals to take care of themselves and their community. It 
started with a small Federal grant that got us off the ground. 
We're now up to 250 neighborhoods throughout the county with 
over 3,000 citizen trained volunteers. This is the future for 
us in terms of our people being able to take care of 
themselves.
    The problem is, of course, the Federal grant has gone away, 
and we are now left with a great program with no funding 
underpinning it allowing us to continue to increase. We have 50 
neighborhoods waiting for staff to become available to equip 
them under this program.
    I believe community preparedness needs to be a priority if 
we are going to effectively respond to major disasters anywhere 
in this country, and certainly here in Pierce County.
    I appreciate Congressman Reichert's assistance last year in 
trying to assist us in getting some Federal funding to continue 
the program. We're looking and hoping once again that this will 
rise to a level that will enable us to continue to fund and 
support this effort.
    The unique thing about our program, although it's based on 
the Federal CERT program for the disaster preparedness piece, 
we have also under the leadership of Sheriff Pastor included a 
crime prevention piece. And the reason we've done that is, 
preparing people for disasters, sometimes the disaster doesn't 
come along for quite a while, and they can become disinterested 
as volunteers. But when you bring the crime piece in, that's a 
day-to-day interest issue for them. And we have seen on average 
in our PC-NET neighborhoods a 27 percent decrease in personal 
property crime. So we're very excited by this two-pronged work 
and attack that we're doing in our communities.
    So I want to thank you again, Mr. Chairman, for the ability 
to speak. We certainly appreciate the hard work that you're 
providing for us in Washington. Again, I would like to 
supplement Mr. Mullen's comments on the grant process. At the 
local level, the people who need to do the planning and the 
responding are the same people that have to do the grant 
process; and every year since 9/11, the grant process at the 
Federal level has changed significantly. The most significant 
change is this year. And the due dates are down to yesterday, 
not months from now or even weeks from now. It's you need to 
have it in by yesterday. It is hamstringing us to implement the 
programs that we need to implement.
    So my plea would be, if we could stay with a process for a 
couple years and not change it and let us catch our breath, 
that would be most helpful.
    Thank you again, Mr. Chairman.
    [The statement of Mr. Bailey follows:]

                 Prepared Statement of Steve C. Bailey

    September 11, the Indonesian tsunami and Hurricanes Katrina/Rita 
have, to some, caused a paradigm shift in the world of emergency 
management--from single level collaboration to new innovative 
partnerships and cooperation on a multi-faceted level. For many of us, 
this approach was always the current practice but it is now mandated 
nation wide. The key to effective mitigation, preparation, response and 
recovery is coordination and collaboration at the regional level.
    Pierce County has made great strides in this arena by creating the 
Terrorism Early Warning and Response task force, as well as 
participating in the Seattle/King County Urban Area Security Initiative 
(UASI). Citizens, municipalities, county agencies, local jurisdictions 
and regional, state and military partners work together on a daily 
basis to address all hazards facing our communities. In Pierce County, 
this most recently became evident during a shooting at the Tacoma Mall. 
Hundreds of public safety personnel from multiple agencies and 
jurisdictions responded to that incident because of the strong 
relationships that have been developed. Had we not all trained, planned 
and exercised together, the outcome may have been very different.
    Interoperable communications is the current hot topic in emergency 
response. The Tacoma Mall incident is yet another example of why 
interoperability is so important. Many of the responding agencies 
utilized different frequencies, but because of recent improvements, all 
agencies were able to talk with on another. More specifically, Pierce 
County Emergency Management purchased a state-of-the-art Mobile 
Operational Command Center (MOCC) with homeland security funds that is 
utilized on a weekly basis. On that unit is a piece of equipment called 
the ACU 1000 which commonizes radio frequencies at the flip of a 
switch. Our public safety dispatch centers are equipped with the same 
technology so this version of interoperability is available countywide, 
not just when our MOCC is deployed.
    Many operate under the misconception that the answer to 
interoperability is 800 megahertz radios, but there simply aren't 
enough channels available for public safety and it is cost prohibitive. 
We estimate it will cost $50+ million for Pierce County to move to the 
800 megahertz system and that does not include the cost for 
infrastructure (towers, etc.). As mentioned above, Pierce County has 
made great, cost effective improvements, but it still isn't seamless.
    Probably the biggest lesson, even above interoperability, is 
citizen and community preparedness. After years and years of telling 
the public they need to have a plan and enough supplies to be self 
sufficient for at least three days, Hurricane Katrina showed us that 
people just aren't following through on the message. We discovered an 
enormous gap between what people expect and what government is able to 
provide. It appears that citizens expect government to appear on their 
doorstep within 30 minutes of a disaster with a hot plate of food, a 
bottle of water, blanket and a check for $500. When emergency response 
disciplines can't meet 9-1-1 call demands on a daily basis, what makes 
people the response should be any different in a disaster? We do not 
have the resources.
    So what is the answer? The key is individual and community 
preparedness, for all hazards. During the hurricanes, individuals and 
neighbors were not prepared and didn't follow the direction of local 
officials. They fell into what we call normalization, a thought process 
that makes one think the situation just can't be that bad, or it can't 
happen to them. Here in Pierce County, we have found something that 
works.
    Pierce County Emergency Management has a national award-winning 
program called Pierce County Neighborhood Emergency Teams (PC-NET) that 
is incrementally closing the aforementioned gap in our area. PC-NET is 
a neighborhood-oriented approach to emergency preparedness and homeland 
security. It is based on the belief that a cooperative effort between a 
county and its citizens is the only sure way to protect a neighborhood 
and to prepare for a major disaster.
    If individuals and their neighborhoods are prepared to mutually 
assist each other, lives can be saved, property can be spared, and 
emergency services can be freed to respond to the most devastated 
areas. This is accomplished by organizing block groups into a variety 
of disaster response teams, each of which has a simple one-page list 
that clearly outlines necessary tasks. In addition, we have partnered 
with the Pierce County Sheriff's Department to provide a crime 
prevention program that, to date, has resulted in a 27 percent average 
drop in property crimes for PC-NET neighborhoods (up to 50% in some 
areas).
    PC-NET goes beyond conventional community preparedness and crime 
prevention efforts of simply raising awareness--PC-NET means taking 
action. People and neighborhoods that are prepared will know what to 
expect during times of disaster, what to do, and how to come together 
in an organized, timely response.
    The problem is that funding for this program and others like it is 
virtually non-existent. Pierce County Emergency Management enjoyed a 
three-year federal grant that got the program started, but the funding 
was exhausted at the end of 2005. Federal CERT funding only provides 
$25-65 thousand, depending on the fiscal year, for a two year grant. 
This does not cover the salary for even one staff member to run a 
program for our 750,000 residents. Recent attempts to work the funding 
through congressional representatives have also been unsuccessful. 
Educating our citizens on how to prepare and training them to respond 
and be self sufficient for at least one week will have a great impact 
on all phases of emergency management. As mentioned in the beginning of 
this testimony, collaboration is critical, not just with those in 
professional emergency response roles but also with the citizens we 
serve.

Testimony Outline:
        I. Introduction
        II. Regional coordination/collaboration
                a. TEW
                b. UASI
        III. Interoperable communications
                a. MOCC
                b. ACU 1000
                c. Made great improvements, but not seamless
        IV. Emergency Preparedness
                a. Biggest lesson out of hurricanes
                b. PC-NET
                c. Lack of funding

    Mr. Reichert. Thank you, Steve. The Chair recognizes Chief 
Trevino.

   STATEMENT OF MARIO H. TREVINO, FIRE CHIEF, BELLEVUE FIRE 
                           DEPARTMENT

    Chief Trevino. Good morning, Chairman Reichert and 
Congressman Pascrell.
    As a point of reference, the City of Bellevue is located 
approximately ten miles east of Seattle. The Bellevue Fire 
Department also provides fire and rescue medical services to 
five other townships, serving a total population of 135,000 
people. We're also part of the well-known King County Medic One 
Program and have the further responsibility of providing 
Advanced Life Support services to a 300 square mile area and a 
total population of 250,000 people.
    To our visitors, let me also convey my welcome to 
Washington, and thank you all for the opportunity to speak with 
you today about regional planning and preparedness, 
particularly as related to our area of focus, which is how we 
work together to identify and prioritize Homeland Security 
allocations.
    We're all concerned about homeland security from a national 
perspective. I hope my background will be helpful in these 
discussions. In the regional arena, I'm the Chairman of the 
King County Zone 1 Fire Chiefs, and my national involvement 
includes serving as Vice-Chairman of the Emergency Response 
Technology Group of the National Technology Transfer Center, 
and member and former chairman of the Metropolitan Fire Chiefs.
    The Puget Sound urban area has a strong history of regional 
collaboration and mutual support in the emergency planning, 
management and response arenas. This experience level, combined 
with effective and working relationships, provide a basis which 
has served as a cornerstone for our process and upon which we 
have added sharp focus in recent years on homeland security 
issues.
    Some examples of this collaboration process include the 
development of emergency management systems within King County 
and the subsequent networking to address regional and national 
issues; also the development of effective hazardous materials 
training and response capabilities, the City of Bellevue is a 
member of the Eastside Hazardous Materials Consortium which 
provides protection for much of Eastern King County; the 
enhancement of emergency responder safety through training and 
procurement of PPE's, which stands for personal protective 
equipment, detection and disposal equipment for explosive 
devices and hazardous materials; planning for chemical, 
biological, radiological and explosive response, detection and 
recovery; joint training initiatives such as Incident 
Management Team, or IMT, training, which is multidisciplinary 
and multijurisdictional; also joint training partnerships such 
as our Seattle-Bellevue exercises recently in rescue systems 
which respond to structural collapse, high-rise firefighting, 
weapons of mass destruction scenarios, mass transportation 
scenarios, and improvised explosive devices, or IED, scenarios; 
and lastly our pandemic influenza planning.
    In February of 2004, the Seattle-King County urban area 
developed an urban-area strategy. That strategy was developed 
by the principal jurisdictions involved in the Seattle-King 
County Core Group, which makes core decisions. Those include 
Seattle, King County, Pierce County, Snohomish County and the 
Washington State Military Department. It also featured input 
from other governmental organizations that fall within the 
boundaries of that urban area. The City of Bellevue was added 
to the Seattle-King County Urban Area Core Group as a result of 
their Urban Areas Security Initiative or USAI 2006 grant.
    The urban strategy is closely integrated with the Region 6 
Homeland Strategic Plan, which was also developed in 2004 for 
the allocation of the State Homeland Security Grant Program, or 
SHSP, funding applied to geographic King County. There's 
substantial multidisciplinary and multijurisdictional 
representation among the various groups that develop and 
implement these plans, which helps reinforce the need and 
benefit of broad involvement with the emergency responders. 
With these plans in place, our urban area is poised to deal 
with the challenges ahead for all hazards and homeland security 
planning and response.
    Some of our recent challenges, however, have come in the 
area of trying to integrate our established process with 
shifting Federal processes and priorities. For example, the 
timelines were condensed during the 2006 grant cycle, making it 
very difficult to develop a comprehensive, inclusive and 
thoughtful grant strategy. It is important for Congress to be 
specific in providing direction to the Department of Homeland 
Security so that grant processes allow time for sufficient 
regional collaboration.
    Also, grant processes change anyway. They're not reported 
out in a timely manner which forces changes in our regional 
processes. Regional partnerships involve difficult and time-
consuming work, and dramatic changes to regional processes 
require significant rebalancing at the State and local level. 
This results in frustration and lost time. Ultimately, this 
means that we spend more time developing the process and less 
time focused on prioritizing and implementing of projects.
    Increased flexibility in grant funding remains a need so 
that urban areas can target funds to their areas of greatest 
need. These include coordinated planning efforts to assure 
critical infrastructure protection needs are prioritized 
including but not limited to information technology, water 
systems and facility hardening; equipment procurement and 
evaluation to ensure interoperability and responder 
preparedness; training and exercise development, implementation 
and evaluation to prepare responders, city leaders and elected 
officials for a major response; and finally, the development 
and implementation of planning documents which may include 
State and local governance and continuity of government.
    Jurisdictions within our urban area are participating in 
the current review of the National Response Plan that is 
occurring in the wake of Hurricane Katrina. Catastrophic events 
require community-to-community, urban area to urban area, and 
state-to-state planning. It's important that Federal policy 
encourage continued and further collaboration that spans beyond 
the borders of our community.
    Some of the next steps that I see for our urban area 
include continuing to build and streamline our partnerships at 
the regional level; to build our response capabilities further 
leveraging our existing resources and our existing mutual aid 
commitments; to streamline and improve the efficiency of our 
intelligence capabilities; to refine and develop our regional 
plans; and finally to train across--continue to train across 
jurisdictional borders.
    That concludes my prepared remarks, and I will take any 
questions you may have.
    [The statement of Chief Trevino follows:]

                 Prepared Statement of Mario H. Trevino

    Chairman Reichert, members of the Committee, my name is Mario 
Trevino, and I am Chief of the Bellevue, Washington, Fire Department. 
For your reference, the City of Bellevue is located approximately 10 
miles East of Seattle. We also provide fire and Emergency Medical 
Services to five other townships, serving a total population of 
approximately 135,000 people. We are part of the renowned King County 
Medic One Program, and have the further responsibility of providing 
Advanced Life Support to a 300 square mile area with a total population 
of 250,000 people.
    To the visiting members of the Committee, welcome to Washington, 
and thank you all for the opportunity to speak to you about regional 
planning and preparedness, particularly as related to our area of 
focus--how we work together to identify and prioritize Homeland 
Security allocations. We are all concerned about Homeland Security from 
a national perspective, and I should point my background should be 
helpful in these discussions. In the regional arena, I am the Chairman 
of the King County Zone 1 Fire Chiefs. My national involvement includes 
serving as Vice-Chairman of the Emergency Response Technology Group of 
the National Technology Transfer Center, and being a member and past 
Chair of the Metropolitan Fire Chiefs.
    The Puget Sound urban area has a strong history of regional 
collaboration and mutual support in the emergency planning, management, 
and response arenas. This experience level, combined with effective 
working-relationships provide a basis which has served as a cornerstone 
for our process, upon which we have added sharp focus in recent years 
on homeland security issues.

Some examples of this collaborative process include:
        1. The development of emergency management systems in King 
        County, and the subsequent networking to address regional and 
        national issues.
        2. The development of effective Hazardous Materials training 
        and response capabilities. The City of Bellevue is a member of 
        the Eastside Hazardous Materials Consortium which provides 
        protection for much of Eastern King County.
        3. The enhancement of emergency responder safety through 
        training and the procurement of equipment such as personal 
        protective equipment (PPE), detection and disposal equipment 
        for explosive devices, and Hazardous Materials equipment.
        4. Planning for Chemical, Biological, Radiological, and 
        Explosive response, detection and recovery.
        5. Joint training initiatives, such as Incident Management Team 
        (IMT) training, which is multi-disciplinary and multi-
        jurisdictional.
        6. Joint training partnerships, such as the Seattle/Bellevue 
        exercises in: Rescue Systems (structural collapse); High-rise 
        Firefighting; Weapons of Mass Destruction scenarios; Mass-
        transportation scenarios; and Improvised Explosive Devices 
        (IAD) scenarios.
        7. Pandemic Influenza planning.
    In February, 2004, the Seattle-King County Urban area developed an 
urban area strategy. The strategy was developed by the principal 
jurisdictions involved in the Seattle-King County Core Group, which 
makes core decisions: Seattle; King County; Pierce County; Snohomish 
County; and the Washington State Military Department. It also featured 
input from other governmental organizations that fall within the 
boundaries of the urban area. The City of Bellevue was added to the 
Seattle-King County Urban Area Core Group as a result of the Urban Area 
Security Initiative (UASI) in 2006.
    The urban strategy is closely integrated with the Region 6 Homeland 
Strategic Plan, which was also developed in 2004 for the allocation of 
State Homeland Security Grant Program (SHSP) funding applied to 
geographic King County. There is substantial multi-disciplinary and 
multi-jurisdictional representation among the various groups that 
develop and implement these plans, which helps reinforce the need and 
benefit of broad involvement from emergency responders. With these 
plans in place, our urban area is poised to deal with the challenges 
ahead for all hazards and homeland security planning and response.

    Some of our recent challenges have come in the area of trying to 
integrate our established process with shifting federal processes and 
priorities. For example:
        1. Timelines were condensed during the 2006 grant cycle, making 
        it very difficult to develop a comprehensive, inclusive, and 
        thoughtful grant strategy. It is important for Congress to be 
        specific in providing direction to the Department of Homeland 
        Security so that grant processes allow time for sufficient 
        regional collaboration
        2. Grant processes change annually, and are not reported out in 
        a timely manner, forcing changes in regional processes. 
        Regional partnerships involve difficult and time-consuming 
        work, and dramatic changes to regional processes requires 
        significant re-balancing at the State and local level, which 
        results in frustration and lost time. Ultimately, this means we 
        spend more time developing the process and less time focused on 
        prioritizing and implementing projects.
        3. Increased flexibility in grant funding remains a need so 
        that urban areas can target grant funds to their areas of 
        greatest need such as:
                a. Coordinated planning efforts to assure critical 
                infrastructure protection needs are prioritized, 
                including but not limited to: information technology; 
                water systems; and facility hardening.
                b. Equipment procurement and evaluation to ensure 
                interoperability and responder preparedness
                c. Training and Exercise development, implementation 
                and evaluation to prepare responders, city leaders, and 
                elected officials for a major response.
                d. Development and implementation of planning documents 
                which may include state and local governance and 
                continuity of government.
    Jurisdictions within our urban area are participating in the 
current review of the National Response Plan that is occurring in the 
wake of Hurricane Katrina. Catastrophic events require community-to-
community, urban area to urban area, and state-to-state planning. It is 
important that federal policy encourage continued and further 
collaboration that spans beyond the borders of our communities.

    Some of the next steps I see for our urban area include continuing 
to:
        1. Build and streamline our partnerships on a regional level,
        2. Further build our response capabilities leveraging existing 
        resources and existing mutual aid commitments,
        3. Streamline and improve the efficiency of our intelligence 
        capabilities,
        4. Refine and develop our regional plans,
        5. And train across jurisdictional borders.
    That concludes my prepared remarks. Thank you Chairman Reichert and 
members of the Committee for allowing me to participate in this hearing 
today.

    Mr. Reichert. Thank you, Chief. The Chair recognizes Mr. 
Mitzel.

   STATEMENT OF WILLIAM ``BILL'' MITZEL, MS, ARM, ALCM, RISK 
   CONTROL SPECIALIST, HOME OFFICE COMMERCIAL LINES, UNIGARD 
                        INSURANCE GROUP

    Mr. Mitzel. Good morning, Chairman Reichert and Ranking 
Member Pascrell. It is a pleasure to represent private industry 
preparedness programs and to provide you with information 
regarding Unigard's program.
    Originating with the request from three employees that were 
also volunteer firefighters to participate in a disaster 
preparedness training program sponsored by Pierce County in 
1987, Unigard's Emergency Preparedness and Response Program was 
formed. Over a period of several years that included numerous 
team drills and direction from JoAnn Jordan of the Bellevue 
Fire Department's Preparedness Division, with thanks to Chief 
Trevino's staff, the Unigard Emergency Response Team has 
evolved into seven specialized teams. You have been provided 
with an organizational chart of our emergency management 
structure as Appendix A on the written submittal.
    Currently 54 employee volunteers make up Unigard's 
Emergency Response Team. They and supportive senior management, 
including our president and CEO, Peter Christen, are key to the 
success of our program.
    The December 8, 1990 snowstorm, or 1993 Inaugural Day 
windstorm, the Nisqually quake in February of 2001 and 9/11 all 
resulted in further enhancement of our program.
    Moving from the history of the program to how it operates, 
Unigard's Emergency Response Team and Business Continuity 
program are components of our Risk Management process, which 
you are copied on in Appendix B.
    Training of each of our specialized teams is based on the 
widely used Community Emergency Response Team, or CERT, model 
with some additional training for Unigard's specific 
operations. The training procedures in our program are, 
however, somewhat different from the traditional CERT Program. 
For instance, only a segment of the full 20 to 25-hour CERT 
training is needed to be completed in order for employees to be 
on any specific Unigard Emergency Response Team. This 
specialized approach takes employees away from their jobs for 
only four to five hours, it supports their specialized 
competency, and it's much more accommodating for employees and 
their supervisors than taking the full CERT training. The 
required baseline emergency training for all employees and 
Emergency Response Team members is noted in an article that is 
provided in Exhibit C.*
    I cannot overemphasize how critical the support from 
Bellevue Fire Department, Medic First Aid, WPS and Applied 
Technology Council instructors are to our program's success. 
Officer Michael Chu, Public Information Officer of the Bellevue 
Police Department, has also been instrumental in developing the 
Workplace Violence Prevention Program--portion of our program.
    Still another noteworthy element in our program is Crisis 
Communications Training. The Reverend Mike Ryan, Chaplain for 
the Bellevue Police Department, has provided this training, 
which is designed to assist our Humanitarian Assistance Team, 
primarily made up of human resources staff, in understanding 
and preparing for various behavioral scenarios in an emergency.
    Our program's primary focus is life safety, in addition to 
expediting the initial building damage assessment. The main 
concern from a life safety and preparedness standpoint for 
Unigard, and most in emergency management would agree for the 
entire Northeast coast of the United States, is a mega-thrust 
earthquake, as I look at how high the boxes are stacked behind 
your chair.
    We are well into the average cycle for such a catastrophic 
event. Therefore, appropriate readiness should not be an 
option.
    Going forward, we are planning on providing advanced 
emergency preparedness and business continuity consultation to 
our commercial lines insureds and the independent agents that 
we sell our products through. We will use proven elements of 
our program as a template in association with proven and easy-
to-use features of other programs such as the American Red 
Cross, the National Safety Council and FEMA, for example, to 
deliver a best practices product to our insureds. For 
businesses with advanced preparedness and continuity programs, 
offering them a reduction in their business interruption 
insurance premiums is also under consideration.
    Regarding Federal incentives to private industry for 
investing in business continuity and emergency preparedness, 
and in applying the philosophy of ``an ounce of prevention is 
worth a pound of cure,'' in looking at IRS Form 3800 provided 
as Exhibit D,* although there is credit for employers affected 
by Hurricane Katrina, Rita or Wilma, and credit for several 
other investments, there is no credit for investing in business 
continuity or emergency preparedness which, particularly when 
teamed with potential property insurance rate credits, could 
serve to move most businesses from being reactive on the 
preparedness pendulum to being proactive.
---------------------------------------------------------------------------
    *See, committee file.
---------------------------------------------------------------------------
    Thank you for this opportunity.
    [The statement of Mr. Mitzel follows:]

                   Prepared Statement of Bill Mitzel

    Good morning Chairman Reichert and Ranking Member Pascrell. It is a 
pleasure to represent private industry preparedness programs and to 
provide you with information on Unigard's program.
    In 1987, the idea of improving Unigard's in-house emergency 
preparedness program was presented to our CEO by 3 volunteer 
firefighters that were employees at Unigard. They were from Mason 
County, Bainbridge Island and the City of Kirkland. Two of these three 
were also EMT's.
    These employee/volunteer firefighters attended a one-week disaster 
preparedness course sponsored by Pierce County and came back with 
recommendations to establish Basic Search and Rescue, Fire and 
Emergency Medical Teams at Unigard and to purchase a 20 foot surplus 
truck cargo container for the teams equipment. Over a period of several 
years that included numerous team drills and advise from JoAnn Jordan 
of the Bellevue Fire Department's Preparedness Division, Unigard's 
Emergency Response Team (ERT) evolved into 7 specialized teams that 
each had specific training and protocols that are now in line with NFPA 
1600 and the Bellevue Fire Department's recommendations. You have been 
provided with an organizational chart of our emergency management 
structure as Exhibit A.
[GRAPHIC] [TIFF OMITTED] T6959.001

    Currently 54-employee volunteers make-up Unigard's ERT. They and 
supportive senior management, including our President and CEO Peter 
Christen are key to the success of Unigard's Emergency Preparedness and 
Response program.
    In the early days of our program, as well as improving our program 
based on lessons learned from drills and from local experts, there were 
several advances closely related to regional or local events. For 
instance, on December 18, 1990 when over a foot of snow dropped in the 
Bellevue/Seattle area, interest in the ERT was boosted, resulting in 
the purchase of additional equipment and more training regarding 
improving building damage assessment skills.
    In the summer of 1992, an open house of our ERT was held with 
representatives from Bellevue and neighboring Redmond and Kirkland Fire 
Departments in attendance. As a result of follow-up conversations, the 
cities of Bellevue and Kirkland incorporated remotely located truck 
cargo containers into their Cities Emergency Plans.
    In 1993, the Inaugural Day windstorm brought hurricane force winds 
to western Oregon and Washington. Unigard's Bellevue/Home Office campus 
was without power for three days. After this storm, we purchased our 
Emergency Operations Center (EOC) container and installed two Cummins 
generators, which until recently provided about 30 hours of back-up 
power. To-date, the generators can provide back-up power for three days 
without refueling.
    In 1996, Unigard purchased satellite phones from Mobile Satellite 
Ventures and added twenty-five Motorola MTX handheld radios to improve 
ERT on-site communications during our drills and actual events.
    On February 28th, 2001 we experienced the Nisqually earthquake. 
Although damage in the Bellevue area was minimal, our 
telecommunications and employee transportation was disrupted for 
several hours. The quake led to increased support from senior 
executives, fine-tuning our team structure/training, and ERT oversight. 
This included moving ERT under Risk Management rather than Information 
Technology.
    After 9/11/01, as was the case for most of corporate America, the 
rules changed. As a result, Winterthur, our Swiss parent company, now 
requires all of its companies to meet higher minimum business 
continuity, security and emergency preparedness standards. Due to 
previous activities in these areas, Unigard already met or exceeded 
most of these directives when they were put in place. We continue to 
improve our ERT and business continuity programs and processes.
    Moving from the History of the program to how the program operates, 
our ERT and Business Continuity program are components of Unigard's 
Corporate Risk Management structure and our enterprise risk management 
process, which you are copied on as Exhibit B. 
[GRAPHIC] [TIFF OMITTED] T6959.002

    Two full-evacuation drills are completed annually by the ERT. 
Training for each of our specialized teams is based on the Community 
Emergency Response Team (CERT) program with some additional training 
for Unigard?s specific operations.
    Unigard's ERT program has several unique differences from 
traditional CERT programs. Only a segment of the full 20-25-hour CERT 
training is required to be completed in order for an employee to serve 
on a specific Unigard ERT such as Fire/Utility Shut-off or Search and 
Rescue team. Additionally, over 15 percent of our ERT members are 
cross-trained on 2 or more teams with a few trained to serve on all 
teams.
    This specialized approach, takes most employees away from their 
jobs for only 4-5 hours, supports their specialized competency and is 
much more accommodating for employees and their supervisors than taking 
the full 20-25 hour CERT training. After initial team training is 
completed, they spend about 4 to7 hours per year participating in 
drills, refresher training as needed and related pre or post-drill 
meetings.
    We are able to keep ERT turnover well under 10 percent annually by 
following drills with meetings that encourage new approaches and ideas, 
providing lunch for team members after the drills; and communicating 
the valued comments and suggestions from drill observers, which include 
local authorities. Active members also receive copies of letters of 
appreciation sent annually by senior management to their supervisors. 
These are timed to arrive just prior to the employee's annual 
performance reviews.
    Baseline Emergency Training For all Employees and ERT Members is 
noted in the article you have been copied on as Exhibit C. I cannot 
over-emphasize how critical it is to get support from Bellevue Fire, 
Medic First Aid, WPS and the Applied Technology Council for important 
elements of our training. Officer Michael Chiu, PIO of Bellevue PD has 
also been instrumental in reviewing the Workplace Violence Prevention 
component of our program.
    Another noteworthy element of our program is Crisis Communications 
training. The Reverend Mike Ryan, Chaplain for the Bellevue Police 
Department, has provided this training. His training addresses human 
behavior during and immediately after a disaster and assists our 
Humanitarian Assistance Team members in understanding and preparing for 
various emergency/disaster behavioral scenarios.
    On-campus training provided by the Bellevue Fire Department and the 
Applied Technology Council on assessing building damage after an 
earthquake is open to neighboring businesses if the classes are not 
full.
    Unigard has a contingency plan with our neighboring Longs Drug 
Store. This arrangement gives the Humanitarian Assistance Team and the 
Incident Commander an option in obtaining food and other supplies 
during a possible prolonged ERT operation. This also provides a method 
for re-supplying the Medical Team.
    Our Program's primary focus is life safety and expediting the 
initial assessment of building damage. Two Initial Assessment Teams 
(Red and Blue) made up of damage assessment trained Fire and Search & 
Rescue Team personnel are dispatched. These teams are typically 
equipped, organized and dispatched within 12 minutes of the start of a 
drill.
    The main concern from a preparedness and life safety standpoint for 
Unigard and essentially the Northwest coast of the United States is a 
mega-thrust earthquake. The Northwest is well into the average cycle 
for such a catastrophic event, therefore, appropriate readiness should 
not be optional. A possible worst-case H5N1 pandemic may be the next 
closest event from a level of a severity standpoint. A lesser, however, 
still catastrophic event such as a rupture of the nearby Seattle fault, 
located four miles south of Unigard's Home Office in Bellevue requires 
the same degree of preparedness.
    Lesser events than major earthquakes, to encompass all reasonably 
foreseeable hazards (a slight adjustment to an ``all-hazards'' 
approach) are also addressed in Unigard's program based on periodic 
vulnerability assessments.
    Outside of the Bellevue branch office (located in the same facility 
as Unigard's home office), there are six other branch offices ranging 
in size from seven to 25 employees. Emergency Procedure training is 
also provided at these offices. Procedures are customized for each 
office based on size, environment and cooperative efforts with 
landlords.
    Going forward, we are planning on providing advanced emergency 
preparedness/business continuity consultation to our commercial lines 
insureds and the independent agents that we sell our product through. 
We will use proven elements of the Unigard program as a template 
(adjustable based on business size) in association with proven and 
easy-to-use features of other packaged programs (American Red Cross, 
National Safety Council, FEMA, etc.) to deliver our insureds a Best 
Practices product. For businesses with advanced and active 
preparedness/continuity programs, offering them a reduction in business 
interruption insurance premium (a component of fire/property coverage) 
is under consideration. We look forward to continuing to improve our 
program. We subsequently will share our experience with our community, 
our insureds, and our independent agents.
    Regarding direct federal support to enhance investment in business 
continuity and emergency preparedness in the private sector and 
applying the philosophy of ``an ounce of prevention is worth a pound of 
cure'', in looking at IRS Form 3800, provided as Exhibit D, although 
there is credit for employers ``affected by'' Hurricane Katrina, Rita 
or Wilma, credit for increasing research activities and credit for 
providing child-care facilities at a place of employment, there is no 
credit related to investing in business continuity or emergency 
preparedness which, particularly if teamed with potential property 
insurance rate credits, could serve to move many businesses from being 
reactive to being proactive on the preparedness pendulum.

    Mr. Reichert. Thank you, Mr. Mitzel. I should mention that 
Unigard Insurance Group was the recipient of an award in this 
area. That's why Unigard is represented here today. They are, I 
think, far ahead of the curve nationwide in their leadership in 
how private companies can be involved in protecting our 
communities. Unigard was the recipient of an award for Business 
Emergency Planning and Preparedness. It was presented by the 
International Emergency Management Association. So 
congratulations to Unigard.
    Mr. Mitzel. Thank you, sir.
    Mr. Reichert. I happened to be at the presentation of that 
award, so I participated in that.
    Thank you all for your testimony. And Mr. Pascrell and I 
will have questions here for the next several minutes.
    I'd like to start, first of all, with the Under Secretary. 
Let's get this question out of the way immediately. What is 
your view of some of the efforts to move FEMA out of the 
Department of Homeland Security? Where do you think FEMA should 
be and why?
    Mr. Foresman. Congressman, thank you for the question, and 
I'll just be very direct.
    I think it's a horrible idea. I've been in this business my 
entire professional life. And I say that as an individual who 
has spent time as a frontline responder, as a State emergency 
management official, and now at the Federal level in the 
Department of Homeland Security. We--and frankly, over the 
course of the past three months since I was sworn in, I've been 
somewhat surprised with some of the challenges that FEMA is 
confronting in terms of its internal operations, and they are 
less about organization and structure in terms of the 
department and very much about management and leadership. And I 
think there's a clear lesson that we've learned out of the 
Katrina events, and that is that we've got to make sure that--
and Mr. Mullen highlighted this--that we have good quality 
professionals in these key positions, whether it be in FEMA, 
the Coast Guard, Secret Service, whomever it might be, that 
you've got to have good quality, well-educated, well-trained 
professionals who have been doing this and understand the roles 
and responsibilities.
    The other point that I would offer is, as we look across 
our readiness for the upcoming hurricane season which we use as 
a benchmark, which we all know we can have an earthquake today 
or a terrorist attack in any area of the country, so while June 
1st is the target date, we'd like to have it all done sooner 
rather than later.
    When we talk about preparedness, FEMA is not the only 
element in preparedness. It's a critical element in terms of 
our national preparedness efforts. But one of the debates that 
I participated in as a State official with the Congress is how 
do we do a better job of prevention in terms of protection, 
response, recovery and mitigation. And part of that debate 
was--the result of that was the creation of the Department of 
Homeland Security. So I think that we are making significant 
progress in terms of strengthening FEMA. We've got a new team 
that's been nominated by the President. We've got new people 
onboard in the Department and in FEMA. And we meet with them on 
a weekly basis. And I've seen literally dramatic progress over 
just the past 30 days with the logistical system in place, 
strengthening the communication systems.
    I think, frankly, the big issue was, there was an apparent 
resistance to integration with the broader Department of 
Homeland Security as a common entity. Those issues have been 
resolved, and Chief Paulison and the rest of his team are 
working hand-in-hand in cooperation with the information 
analysis folks. And we're seeing greater integration each and 
every day. Frankly we're going into this hurricane season in a 
much stronger Federal posture because the work that we're doing 
at FEMA is part of positioning as a critical element in the 
Department of Homeland Security. We're providing a lot of 
assistance at the Department level that FEMA didn't have 
available to them in the event of a major disaster. And I for 
one having dealt with the issue over the years, that's 
absolutely critical.
    I'll just close with one other issue. I've dealt with a the 
lot of presidential disaster declarations from State officials. 
The headlines of FEMA at Katrina are the same headlines that 
came out of Andrew, and they're the same headlines that came 
out of the Northwest floods. These are not new issues. But the 
one thing with this new approach to preparedness in the 
Department is this gives us a first opportunity, a clear 
opportunity, to make sure that we don't simply document the 
lessons learned, but that we challenge them, turn them into an 
implementation plan and make fundamental changes to what we're 
doing to ready America at the local, State and Federal levels.
    Mr. Reichert. So I can clarify, in my mind, you're against 
that FEMA move from the Department of Homeland Security?
    Mr. Foresman. Absolutely. I think it would cause--any 
further movement of the boxes would further interrupt the 
momentum that we're beginning to build. Beyond the grant 
program, just in basic coordination, no one said putting this 
Department together was going to be easy. We're going through 
the natural evolution and the maturity process. And it's 
beginning to take hold. Just literally in the past three 
months, I've seen significant progress. And I think we need to 
get a time and assess where we are and where we're going. This 
is not an organizational issue; this is a management issue.
    Mr. Reichert. You say you have Dave Paulison there and his 
assistant, Admiral Johnson. And certainly your experience and 
expertise in this area is well known. So the fact that we have 
people in place that do have experience and are looked to for 
their experience and leadership in this arena, do you see--you 
talked about not seeing any organizational structure issues. So 
you don't see anything organizationally that needs to be done 
at all?
    Mr. Foresman. Well, I think that Chief Paulison--and 
frankly I'm spending more time with Chief Paulison than I am 
with my own family these days. But I would offer to you that I 
think Chief Paulison needs to have the flexibility to make some 
tweaks within the FEMA organizational structure that he has 
that oversight over. But in terms of the macro-organizational 
structure of the Department in terms of FEMA's relationship, 
no, I think we're in pretty good shape. There may be some other 
tweaks.
    But at the end of the day--Dave and I have had a lot of 
conversations. We were down on the Gulf Coast two weeks ago, 
and we talked about, what are those things that the department 
needs to do at the macro level to make FEMA a success and to 
make our National Emergency Management System a success, and we 
understand that. And his desires are shared by the other 
component leaders. We need the other component leadership folks 
on a day-to-day basis; Ted Allen of the Coast Guard and others. 
Everybody is stepping up to the plate and doing things to 
support the Department's mission and have made improvements in 
the strategy.
    And I would just offer that we're going through growth 
pain. Nobody will deny that. But we don't stop growing. We 
simply need to make sure that we continue to strengthen 
ourselves.
    Mr. Reichert. Thank you. I would follow up very quickly 
with Mr. Mullen.
    Your testimony described a little difficulty in your 
relationship with FEMA since it's changed and now under the 
umbrella of the Department of Homeland Security compared with 
past experience before they were under the umbrella of the 
Department of Homeland Security. And you mentioned that there 
was no emergency management expertise, you thought that was a 
factor that created some difficulty for your communication. The 
grant applications were not completed in a timely fashion. 
Commitments were not met. Let's see what else we have. Well, 
those are just some of the things that you mentioned as kind of 
main things.
    How do you see the relationship now with FEMA and the 
preparedness you're doing in your daily work?
    Mr. Mullen. Thank you for asking that. I've been on the 
edge of my chair since Secretary Foresman was speaking.
    I thought that the initial creation of the Department of 
Homeland Security was a precipitous decision taken with almost 
no analysis or discussion with professionals in the situation. 
I think that if we reverse it now, it would be the same kind of 
mistake. I think we've got it; it's there. We need to work with 
it. Before we make any major overhaul of that system--and I 
think some of my colleagues in emergency management would agree 
with me--before we go back and try to reconstruct this thing 
totally, I think we ought to take a couple years, wait for a 
new administration, whichever party prevails, and that proposal 
from the professional communities to whichever transition team 
is going to have to hunker down after November and figure out 
how we will run this country and protect it. That's the group 
that should be looking at the long-term reorganization.
    Now we are six years in. We need to spend the next two 
years seeing if this can actually work. It's like picking up a 
good novel. Let's work with each other to try to fix that 
problem and that problem and that problem. There is a better 
team in place. There's a more sensitive team in place. They 
seem to be listening. And I don't want to interrupt that. We 
get a little frustrated every six months when we have a sit-
down with DHS and find out half the people there are moving. I 
would like to see some continuity there for a while. I would 
like you to be there the next time we talk.
    Mr. Foresman. So would my wife.
    Mr. Mullen. I can understand that. I think that one of the 
things that I hope that FEMA will do and the DHS will do is 
work with the Federal family to try to coordinate them. They 
have spent a lot of time affecting State and local lives and 
work programs, but I haven't seen a lot of evidence that 
there's been coordination at that level. That was really what 
the DHS system was supposed to do was to pull all those Federal 
entities together. In fact, with one hand they have, I think, 
done a good job of telling us to get together and work 
together. We have done a lot of that. But at the same time 
obstacles have been thrown into place that affect our ability 
to work together, that makes Steve Bailey or one of his other 
colleagues go back to a bunch of people and say this isn't what 
we've been told before, there's been a change, the 
application--the deadlines are tighter, we need all this 
information, we need it today. That kind of thing drives people 
at the local level crazy, and it isn't easy on the folks at the 
State level to pass that burden on.
    And so I think that if we can get some stability within 
FEMA for a year or so in the systems and processes so we have 
some predictability, I could actually tell my emergency 
management council and Committee on Homeland Security 
colleagues what to expect in November when the grant guidelines 
come out so we can get ready for them. That's the problem right 
now. We're moving so fast that no one can either catch their 
breath or remember what the last commitment was. If we can get 
this under control for the next couple of years and give a fair 
chance for this program to work, I think that we might make 
real progress, even if we end up ultimately changing it, 
reconstituting it. The first thing to do is try to make this 
work, because we don't have time for another reorganization.
    Mr. Reichert. Thank you. What usually happens is we all get 
five minutes on the panel. Since there's only two of us and 
we're a little bit more relaxed, I took a little bit longer. 
I'm sure Mr. Pascrell was ready for his questions, so I'll 
yield my time to the ranking member.
    Mr. Pascrell. Mr. Secretary, yesterday Secretary Chertoff 
announced that, because of the debacle of Katrina, that there 
would be some changes.
    And I go back to what Director Mullen spoke about in his 
testimony in response to the question from the Chairman. 
Yesterday Chertoff announced that there would be some changes. 
And I hope that these are not simply rearranging the deck 
chairs on the Titanic. That's what we're concerned about.
    I wouldn't be too quick to change--see, whether FEMA is in 
Homeland Security or not is secondary. Whether it's functional, 
that's the most important thing. And whether there is a seat at 
the table in the Oval Office, that's critical. We're not only 
talking about human tragedy, national tragedy; we're talking 
about terrorism.
    In the recommendations that the Secretary presented 
yesterday, he mentioned that he assumed a greater role for the 
military. What does that mean, and where did this come from?
    Mr. Foresman. Congressman, I was not with the Secretary 
when he made those remarks at the press conference, but let me 
address first the issue of the Oval Office.
    Secretary Rumsfeld would not go to the White House without 
the Chairman of the Joint Chiefs of Staff. And I think 
reasonable expectation is that Secretary Chertoff is not going 
to go without the FEMA Director to discuss what's going on with 
the disaster. And the Secretary is committed to making sure 
that Chief Paulison has the appropriate access to the key 
decisionmakers. That is an opportunity that is fully embraced 
when they've got the chance.
    To the second piece of the question, as you know, a number 
of reports have recommended a more robust role for the 
military. And I think that part of what we're working through 
with our colleagues at the Department of Defense is to make 
sure that we're not simply substituting the military for good 
preparedness at the local and State level. And these are 
recommendations in the reports. We're evaluating those 
recommendations. But first and foremost, we see that, with 
respect particularly to the comments made here today, that our 
grant programs, that our activities are targeting enhancement 
in the local and State level. We've got nearly 15 million State 
and local government employees that are potential responders. 
That is a far greater number than we have in uniform.
    Mr. Pascrell. I asked the question because I think there 
were five or six recommendations. But I asked the question 
because it illustrates what we need to do in terms of the boots 
on ground here. We need to develop systems from the bottom up. 
The very people who--those 15 thousand people you're talking 
about, those local people, we need to ask them what works best 
rather than we think either in the committee or the Department 
what we--we think we know what's best for you. That doesn't 
work, and I would question that.
    In the area of funding, you mentioned the question of 
funding. You worked in the State of Virginia.
    Mr. Foresman. Yes, sir.
    Mr. Pascrell. You did a great job down there. You were a 
member of Secretary Ridge's special task force established to 
find out where Federal funding was, and why local governments 
were concerned they were not receiving funding. I don't care 
where we go throughout the United States, we hear the same 
thing. You hear it in Washington. We hear it in Washington 
also.
    The task force released a report in June of 2004, and it 
recommended that the Department of Homeland Security in 
coordination with State, county, municipal and tribal 
governments develop an automated grant-tracking system that 
would allow for the real-time tracking of the distribution and 
the use of Homeland Security-related funds. In the Congress, we 
felt this was a big deal, and I believe it is.
    Tell us if this new grant-tracking system has been 
deployed; and second, what were the findings of the department 
with regard to Homeland Security funds?
    Mr. Foresman. Congressman, with respect to the first part 
of the question, no, we have not deployed the new system. And 
one thing, your familiarity with the Firefighters Assistance 
Grant Program, some of the tracking tools that we're using 
today that's proven to be a very successful and timely program, 
we're looking at adapting and adopting those rather than trying 
to create something new and give our local and State partners a 
little bit of consistency, which you've seen and you've heard 
here today. We have not made sufficient progress on that. It is 
among the top priorities that I have in the preparedness 
directive, and I ask our folks in the training office we need 
to be able to give you real-time timely data, and the State and 
local people need to have that.
    Second, with regard to the grant programs, one of the 
issues that I have identified, and again I've seen today, we 
sometimes get focused on the product at the expense of the 
processes. And I think that clearly what we need to do is to 
find cleaner processes that are unified across the multiplicity 
of extremes that we have out there, so that if you're a local 
official or a State official, if you're dealing with targeting 
infrastructure, protecting lives, if you're dealing with fire-
ready rates, if you're dealing with Homeland Security Grant 
Programs, HSGPs, that you've got a consolidated consistent 
process rather than differing grant processes.
    Part of this that is different is the fact that Congress is 
providing different levels of guidance for grant programs 
including the deadlines. But I think the take-away is, we need 
to bring our State and local partners in, take a deep breath, 
as Mr. Mullen said, in terms of where we're at right now, look 
at these grant processes and make sure we've got them as 
streamlined as possible, because at the end of the day, we want 
to get the dollars out. We want to spend them in a wise 
fashion.
    But at the same time, you're going to ask us this time next 
year, how much better prepared are we, and I need to be able to 
assure you that we've spent the dollars wisely.
    Mr. Pascrell. I have concluded that, while there is 
criticism that must be directed at local efforts to secure 
funds for needed materials and procedures, most of the blame is 
not the local police officers or firemen or EMTs or 
coordinating agencies within the State. When we hear about 
money in the--what's the saying--money gets stuck in the 
pipeline, that's why I asked the question in the first place.
    Notice, I'm not going to get into the cuts that have been 
recommended by the administration today. They're bizarre. And 
if you listen to the first responders here, the guys and the 
gals that are on the frontline, I think that there's a lot of 
explanation that has to be done. But I realize that we won't 
talk about that today. Isn't that good?
    Mr. Foresman. Thank you, sir.
    Mr. Pascrell. Mr. Mullen, does the Washington Homeland 
Security Committee include tribal government representation in 
its emergency planning and preparedness?
    Mr. Mullen. Tribal governments are able to participate on 
the Committee of Homeland Security, but they are not on the 
routine council.
    Mr. Pascrell. Why not?
    Mr. Mullen. Because there's a statutory membership created. 
That would be something that would have to be adjusted. That's 
something that we should approach again and take another look 
at.
    Mr. Pascrell. If it's from the bottom up, we shouldn't 
exclude anybody, and we should find ways to deal with that.
    And it would seem to me--and former--I'd like your reaction 
to this. Former FEMA Director, Michael Brown, remember him?
    Mr. Mullen. Yes.
    Mr. Pascrell. He complained that--it's nothing earth-
shattering, but he complained that the Department of Homeland 
Security's emphasis on risk has hampered the all-hazards 
preparedness function of FEMA. What specific metrics or 
methodology does the statewide committee employ to ensure that 
all hazardous preparedness, all hazardous preparedness, is also 
applicable to a terrorist or a risk-based scenario?
    Mr. Mullen. Many of the measures, many of the programs that 
have been funded, programs that have applicability, whatever 
the disaster might be, we have employed a risk factor in our 
designation of where the money should go on our prioritization. 
And that's been somewhat controversial because risk models are 
an imprecise science. Some of the information is classified, 
and I don't have access to some of it.
    But as we have worked on this, we have tried to strike a 
balance between population, population density and a factor of 
risk to try to be respectful of the Federal till for risk as 
well as the Washington area and the State, and that has been 
more heightened in terms of focusing on what is perceived to be 
the greatest risk that we have.
    So it's in there. I believe as we try to assess our 
critical infrastructure and wade through both issues of 
disclosure and other things that are going on, we're making 
progress without having true risk factors to put in. In the 
meantime, what I have tried to have my focus look at is, what 
is the kind of impact that an event would have on us, and what 
would make Washington State less Washington State.
    Mr. Pascrell. And when you've established priorities, 
somebody is of lesser priority. I mean we have that problem on 
the Federal level when we try to deal with funding based on 
risk. Some States felt that what we were trying to do is 
exclude them, and that wasn't the purpose. However, it would 
seem to me that, with limited resources, they need the 
directive to where the greatest vulnerability is.
    Mr. Chairman, can I just ask a quick question?
    Mr. Reichert. Sure.
    Mr. Pascrell. Mr. Bailey, what are the standards relied 
upon to ensure that the equipment purchased in advancing the 
goals of interoperability, what are the standards derived from? 
Where do you think they should be derived from?
    Mr. Bailey. Well, that's a debate that has raged.
    Mr. Pascrell. That's why I asked your opinion.
    Mr. Bailey. Thank you. One of the things we've tried to do 
in this State--and I think we've done it pretty well--and 
here's why it is has worked, is because the State was smart 
enough to establish work groups that involved the local people. 
And Jeff Jensen, the Tacoma Emergency Manager, has been 
critically involved in the planning process on the equipment 
from the very beginning along with Chief Vickery who is here 
from Seattle. So we've had that kind of inclusive planning 
process that has helped us a great deal.
    However, the State of Washington, as Congressman Reichert 
will tell you, is a very diverse State. We have a mountain 
range that literally almost creates two different worlds. So to 
totally standardize equipment is probably not fully attainable, 
but certainly what we have done is through that work of 
regional people working at the State level, all equipment 
purchases are vetted to ensure as much interoperability as 
possible. And I think thanks to that committee, and the people 
here today that represent that, we've done a pretty good job of 
trying to get to those kinds of attainments.
    Federal standards, I think, in theory are somewhat probably 
a good idea. The practicality due to local changing conditions, 
I'm not sure they're totally attainable either. We have a lot 
of requirements from the Federal Government already, and I 
would hate to see further flexibility taken away from the local 
level personally. So that's how I would address your question.
    I would also just like to add that, on our Homeland 
Regional Coordination Council here in Pierce County that makes 
the decisions for all of our homeland security grant spending, 
we do have a representative from the Seattle Tribe of Indians 
who is very active in that process. And I think you would find 
at the local level throughout the State, that the tribes are 
very well represented.
    Mr. Pascrell. Thank you very much. Chief Trevino, very 
briefly, your testimony focused on the frustration you have 
with DHS's constant revision of the grant guidelines, how that 
hampers planning, et cetera, et cetera.
    Have the new guidelines had the effect of improving the 
statewide planning process?
    Chief Trevino. The new guidelines, once again, are changed, 
and so we're having to react to those changes just as everyone 
else is.
    Mr. Bailey commented earlier about encouraging DHS to 
maintain continuity in the guidelines, so that all of us as 
players and participants in the process could catch up with it, 
and I'd like to echo that thought.
    Mr. Pascrell. And Mr. Mitzel, how does your company balance 
your private sector concerns and emergency preparedness?
    Mr. Mitzel. Our private sector concerns? Okay. We are a 
commercial insurance company.
    Mr. Pascrell. Right.
    Mr. Mitzel. So what we do, we help our commercial lines 
insureds with their own emergency preparedness and continuity 
programs, which vary highly based on the environment that 
they're located in, the type of business, et cetera.
    Mr. Pascrell. So those folks wouldn't be hesitant to detail 
their emergency plans because of profit?
    Mr. Mitzel. Generally speaking, but they are very open with 
us as their insured to come in and assist them, so we generally 
help them with their continuity.
    Mr. Pascrell. We talked about the idea, which you brought 
up, about credit to those companies who would come forth and 
put something into effect, therefore reducing risk and 
vulnerability, methods and processes within the companies to 
overcome--and to prepare as well as to overcome if something 
disastrous occurred.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    Mr. Mitzel, are you familiar with the Department of 
Homeland Security's Community Emergency Response Team?
    Mr. Mitzel. The CERT program, yes.
    Mr. Reichert. How does that differ from the Unigard 
emergency response?
    Mr. Mitzel. I would refer to another company that's done an 
excellent program in our jurisdiction, in Chief Trevino's 
jurisdiction, and they, in fact, won the same award we did the 
year before, and that is T-Mobile. And they do train their 
employees to the full CERT program. They are able to get 
employees away for that 20 to 24-hour block of time. They have 
a very successful program, too.
    We wanted to specialize our employees a little bit more on 
just becoming a search and rescue team member or a medic--
medical team member versus training them to do a little search 
and research, a little damage assessment, a little bit of 
everything, because we felt that the number of drills we were 
doing, two or three, we wanted to keep the competency at a 
higher level than being trained to do everything.
    So we took the model, revised it somewhat with the local 
fire department's approval, and customized the program to what 
we thought was a better fit with our organization. So there's a 
wide range of flexibility depending on how much time the senior 
management is able to give us the employees to participate in 
training and drills.
    Mr. Reichert. Thank you. We had a little discussion about 
interoperability. That's one of the things we've been working 
hard on. We've held a number of hearings. I think Washington 
State is way ahead of the curve across the Nation in our 
ability to communicate first intraoperatively and 
interoperatively with other departments.
    How does interoperability play with the partnership between 
the Bellevue Police Department and the Bellevue Fire Department 
and Unigard?
    Chief Trevino. Well, we're fortunate in the City of 
Bellevue in that the police department and the fire department 
share a communications center. Our communications are 
completely seamless, I'm happy to say, and we're able to speak 
on each others' radio channels on a regular basis.
    The same thing applies with Unigard Insurance. We have very 
good communication with them. In fact, part of their process is 
working with our volunteer ham radio operators and preparing 
for the eventuality that our communication systems could go 
down in the event of a disaster. Every disaster that I've seen 
going back to our response when I was in the search and rescue 
team to the earthquake in Los Angeles, the communication 
systems went down, the cellphones went down, just about 
everything goes down. So we rely on ham radios as kind of a 
last tier of backup in our process with them. And we're very 
involved with them, and I think we're very effective.
    Mr. Reichert. So it's more private sector organizations are 
involved in the separate emergency preparedness. There is a 
plan in Bellevue to include them in some sort of communication 
systems to use the expertise that they have passed on?
    Chief Trevino. Yes. And I should also comment that the 
combined communications center not only provides services to 
the Bellevue Police Department and the Bellevue Fire 
Department, but a total of fourteen team fire departments and 
two police departments. So it really takes on kind of a 
regional aspect, and the participants and the private agencies 
within the regional area all benefit from that process.
    Mr. Reichert. Chief, you also mentioned that jurisdictions 
within our UASI and you participate in that review. Who's 
leading that UASI review?
    Chief Trevino. The way I understand it, you have to 
remember that Bellevue is a recent participant in the UASI 
process, and a lot of the planning into the proposals made was 
already done before Bellevue was named as a participant, so we 
came onto the process very late. And at our very first entry 
level, most of the planning had been done.
    The next level of review is done at the State and from the 
State proposal, which comes back to the Federal Government. 
We're waiting for the response back at which point further 
review will be done.
    Mr. Reichert. Anyone else have anything to add to that?
    Mr. Mullen. I chaired a UASI program. And as a voting 
member, I've had the opportunity to work with it. It was a very 
exhaustive process. And given the very limited time and the 
change of guidelines, it was very challenging for everybody 
involved.
    Mr. Bailey was in that group, the Snohomish County 
emergency manager, Seattle, Bellevue, and the King County 
Deputy Director. So we had a group of five or six, but working 
with us are a number of working groups that have fed into the 
information that is pretty broadly representative. While 
Bellevue has now joined our core group as a voting member, 
Bellevue was represented by King County Fire & Rescue prior to 
that. It's been a pretty collaborative process.
    Now, again, I can't say there was great joy about the 
decisions, but in the end, I think, given the parameters we 
had, the limited knowledge and the time frame, I thought we 
made some outstanding decisions, and people really stepped up 
and put the regional requirements ahead of the major 
jurisdictional desires. That happens when choices have to be 
made, and I think the spirit that this group had was very 
strong.
    And it wasn't without its bumps, but we worked through 
that, and I think we're stronger for it. And we're waiting for 
the next run we'll have when we find out what we'll divide up 
and what the methodology of deciding is. Steve was also here.
    Mr. Reichert. Go ahead.
    Mr. Bailey. Mr. Chairman, I think there's one very good 
example of what we've been able to do in the UASI work group.
    The Seattle-King County metropolitan area is the largest 
populated metropolitan area in America without a public safety 
aviation program. And that is one high priority we have put in 
our UASI proposals. We've worked with your staff to seek 
additional resource funding to help us deal with really what is 
a huge public safety tool. Given our geography, our limited 
transportation system, interoperability issues in a disaster, 
the aviation piece is huge, and we have lagged behind in this 
region for years. And part of UASI has worked with aviation. 
Ted Summers has been involved in that, and we've made progress. 
The solution is funding, and that's the thing we're trying to 
pursue in that UASI program.
    Mr. Reichert. I know there's been a tri-county effort in 
the air support area, and we are still working with Pierce 
County, King County and Snohomish County trying to acquire some 
funding.
    I was sheriff not too long ago. And part of that 
frustrating process is UASI. But I think it's grown into a 
great partnership.
    I want to mention just quickly before I move back to Mr. 
Pascrell for some follow-up questions that I had the 
opportunity to interact with Mr. Michael Jackson also in 
hearings, but Mr. Pascrell mentioned in the paper today the 
Secretary saying that the military may play a greater role when 
it comes to these emergencies. There are other things out 
there. I know that the Secretary is very much presenting as new 
ideas, new directions, and one of those--I want to mention some 
of those besides the involvement what role does the Department 
have to play in these emergencies. One, I know that you really 
want to take a look at the contractual element, the logistics-
related tools, who is moving where and why, what the contracts 
are, better customer service to handle mass dispersion, 
preidentifying shelters for people who are homeless, enhancing 
situational awareness, people deploying quickly to areas. These 
are just some of the things that Secretary Jackson mentioned. 
Debris removal was a big issue at Katrina. And it seemed like 
they used the most expensive engineers and contractors and the 
Corps of Engineers, not local contractors.
    Again, the stronger DOD role was mentioned. Reaching out to 
the locals, which I was glad to see on the list of things that 
DHS is looking at, how can we work together closely. This is a 
great start, having a hearing here. Last but not least is 
financial accountability, cost control, and better management, 
so all of those things.
    Do you have a comment on any of those?
    Mr. Foresman. Congressman, if I may go back to the question 
about DOD, I think that part of what the Secretary may have 
been also talking about--again, I was not in the room when he 
made the comments--but in retrospect, as a result of the 
briefings he and I both did on Monday, update briefings, one of 
the things that we've been able to do is to make sure that the 
mission assignments that the Department of Defense may need to 
do in the context of supporting hurricane response or even an 
earthquake scenario, there are lots of things we're going to 
need; heavy-lift helicopters, medium-lift helicopters. We're 
going to need air transportation. We're going to need aerial 
reconnaissance using some of the technology of our intelligence 
community to do some of that, all of these types of things.
    We know that we're writing the mission assignment today. 
And I think a large part of what I would offer to you is, this 
is basic Core 101; do as much as you can before the disaster 
strikes. And we're working very aggressively with Secretary 
Rumsfeld, Assistant Secretary McHale, the Chairman of the Joint 
Chiefs, and others to make sure that we get as much of the 
likely DOD missions that are historic missions. They have dealt 
with them for 20, 30 years, make sure it's prescripted so it's 
the State of Washington or any local community depending on the 
State of Washington. If we have to turn to the Federal family 
of DOD, we're ready to do whatever it takes to make it happen.
    So I'll go back and talk to the Secretary, Congressman. 
I'll provide you all with a written follow-up in terms of what 
his comments were in relation to the article. Sometimes the 
information in the statement may not be exactly correct.
    Mr. Pascrell. I just have one final question, Mr. 
Secretary.
    When Secretary Chertoff said yesterday that he desired to 
upgrade the National Alert System, what exactly can we look 
forward to with that regard?
    Mr. Foresman. Congressman, thank you for that question. 
That actually goes to a large part of what my colleagues have 
been talking about today. One of FEMA's critical elements is 
the ability to notify the general populace at large that we 
have a variety of situations that have occurred, earthquakes, 
hurricane, whatever it might be.
    The Emergency Alert System, formerly known as the Emergency 
Broadcast System, has not undergone the transformation to the 
degree that it was intended when they made some changes in the 
1990's. We need to make some policy changes. There are a lot of 
things upon the broadcast media, text messaging, reverse 911, a 
lot of technologies that are available today. Don't forget our 
core principles of the broadcast media. But we need to make 
sure that, from a policy standpoint, it reflects the 21st 
Century technology and how we communicate with the population 
at large.
    The other issue is to identify the number of occasions 
where the Emergency Alert System simply has not worked. The 
broadcasters are voluntary participants in that program. Some 
broadcasters in some States have very robust radio and 
television support for those activities; other States do not. 
We need to ensure the strength of that system, so we're taking 
a very systematic look to make sure that the conversion from 
analog to digital has moved as it should have, that the primary 
and secondary relay points are up and operating, that the 
States have in place a good quality plan, and that we're using 
all the available technology.
    Again, at the end of the day, government can be as prepared 
as we want to be. The private sector can be as prepared as they 
want to be. But if fellow citizens have problems, then all that 
preparedness is not going to pay off.
    Mr. Pascrell. Thank you.
    Mr. Reichert. Mr. Mullen, do you have a comment on that 
question?
    Mr. Mullen. No. I think the point that the EAS is voluntary 
needs to be taken very seriously. It isn't necessarily 
something that is guaranteed. The warning will go off precisely 
in the time frame and the manner that we wish.
    I actually was reacting a little bit to the discussion 
about the greater DOD role just for a moment. I think where we 
get very concerned is, when it sounds like the suggestion is 
made in the Federal line, we feel very strongly in that, if the 
troops came in, they should be under the command of the adjunct 
general working for the government. Building work to support 
States has helped in the requirement to support the local 
people.
    When we're talking about a National Alert System or any 
pronouncement coming out of DHS headquarters, we welcome that, 
but we also welcome the opportunity to and the connection to 
the local and State officials who actually are responsible for 
delivering that message to be sure it's done properly. I go 
back to the Nisqually earthquake when the Nisqually operation 
was under the Federal level. I campaigned in the boiler room 
for each jurisdiction getting press release without any 
consultation from the State and local. Those are the kinds of 
things that we need to get away from so we're sure that we're 
all working together. If we're going to be a team, we've got to 
get our signals straight.
    Mr. Foresman. Chairman and Congressman, if I might, that's 
why dialogue is absolutely important. Let me be very clear.
    What we're doing with the Emergency Alert System is 
designed to empower local officials and State officials to be 
able to use a system that works. The Federal Government is 
responsible for making sure there's an Emergency Alert System. 
We depend on our local and State partners to implement that 
system and make it work.
    In regard to the DOD, I think that the acknowledgement here 
is that emergency disasters are local events or State events. 
The role of the Federal Government is to provide support. 
Nothing in my remarks should be construed to say that we're 
talking about federalizing emergencies and disasters in the 
community. What we're talking about is making sure the Federal 
support is robust and in force.
    Mr. Pascrell. Let's go back to what you just said. It's all 
right for us to conclude that we want the locals--I mean the 
extended definition of that--the locals ought to respond to 
national catastrophes, be it whatever, and that the Federal 
Government should be called on as a later resource.
    That only works if the locals are involved in the process 
in the first place. That has not happened. You can't expect the 
locals to be able to respond accordingly when these disasters 
get out of hand as Katrina did or as a manmade disaster, a 
terrorist attack, unless those folks are in at the planning in 
the very beginning and not look just to respond. I think I 
can't emphasize that enough, Mr. Chairman. If there's anything 
we keep on hearing over and over again, we expect the locals to 
take on this huge responsibility and undertaking. Many times 
locals don't--can't appreciate--they're not in a position to 
appreciate what's the extent of the resources that will be 
needed to fight this particular--to respond to the situation. 
And that is why the Federal Government has a responsibility 
early on before anything even happens to help us prepare for 
what--our citizens demand that. Our citizens demand that. And 
this is the angst, this is the anxiety that's being grated out 
there, I think, more than in any other area.
    The questions about FEMA, how can you separate preparedness 
from response? I don't know how you do that. I don't think you 
should do that. That's my point. Thanks.
    Mr. Foresman. Congressman, you know, I agree. We just need 
to meet our short-term planning proposals.
    Mr. Reichert. Thank you to the panel for their testimony, 
and I appreciate you asking questions and answering questions.
    This Committee has been very focused on three things that 
we recognize as key components in this process; that's 
planning, training and communication. I think everyone on the 
panel will agree, those three are key to our success in keeping 
our communities safe. The most important part in having any of 
those three critical areas succeed is the piece that Mr. 
Pascrell just touched upon, and that is the relationship 
between the Federal, the State and the local entities. And all 
have to come together to address this issue, and today I think 
we have a good start. I think that, as we move forward with 
friendships and the names that we shared today help build those 
relationships and make the planning and training and 
communication piece work.
    So thank you all for being here. And at this time, before 
calling the second panel, we'll take a brief recess. Thank you.
    [Recess.]
    Mr. Reichert. I'd like to call the Subcommittee hearing to 
order. I'll now call the second panel.
    The witnesses on the second panel are Sheriff Pastor, 
Sheriff of Pierce County; Assistant Chief Vickery, City of 
Seattle Fire Department; Michael Loehr, Director of 
Preparedness for Public Health--Seattle and King County; and 
Mr. William Pugh, Director of Public Works and Assistant City 
Manager for the City of Tacoma; and Mr. Roger Serra, Director 
of Security and Emergency Management for Seattle City Light.
    The Chair recognizes Sheriff Pastor.

STATEMENT OF PAUL A. PASTOR, SHERIFF, PIERCE COUNTY, WASHINGTON

    Mr. Pastor. First of all, gentlemen, thank you very kindly 
for coming here and listening to us. Welcome to Pierce County. 
It is especially good to see Chairman Reichert who give 
assurance to me that there is life after being sheriff, and 
possibly even more exalted life. I always thought that being 
sheriff is the ultimate but--
    Mr. Reichert. It is.
    Mr. Pastor. There are a number of things that we commented 
on that you've heard about already in Washington State and in 
Pierce County, things which allow us to apply technology to 
work and support of one another to prepare for and respond to 
natural disasters and terrorist attacks. We don't just want to 
brag though because, if you wear your--if you rest on your 
laurels, you're probably wearing them in the wrong place, so 
there is much more that needs to be done.
    One thing that we do not have in Pierce County that I will 
address briefly is interoperable communications. We have kind 
of a patched commonality to our emergency management, but we 
need to do more, and we can get there. Getting there is 
consistent with the goals we have taken with our approach to 
disaster preparedness and emergency preparedness countywide. 
And I speak countywide from the standpoint of having the 
privilege of serving as the sheriff of Pierce County, a county 
for over 750,000 people with all sorts of territory in 1800 
square miles and the mountain that you could see if you could 
see it in the distance over there. That is our mountain in 
Pierce County.
    Our approach, as you've heard already, to disaster 
preparedness and terrorist preparedness is an all-hazard 
approach. That's our doctrine. That's the way we approach this. 
As you're well aware, most of the preparedness for natural 
disaster planning, equipment partnership is applicable in the 
area of responding to terrorist incidents as well, in fact, 
probably over 75 percent. So we've taken steps, we've made 
plans, we've equipped, we've drilled, we've trained with the 
all-hazards/all partners doctrine in mind. We've tried to 
include people from the public sector and throughout the public 
sector, local, State and Federal, as well as people from the 
private sector, private businesses as well. In collaboration 
with our municipal partners in the county and in even closer 
collaboration with our colleagues in the Pierce County 
Department of Emergency Management, we have placed the people 
in this county, I think, in a strong position with regard with 
readiness.
    And you can pick off the things. You've heard some of them 
already. Our State is involved with the PC-NET program; 
computer mapping of schools and critical infrastructures has 
begun here in Pierce County; establishing temporary radio 
frequencies to patch our radio frequencies together; our 
Terrorist Early Warning Group, which Chairman Bailey has talked 
about. But we have more to do to improve our position. And we 
have a complication of, like many parts of the United States, 
we value local control. We have 19 law enforcement agencies, 23 
fire districts, eight Public Safety Answering Points--and God 
bless us for our dedication to local control of it. But 
sometimes and in some challenges, that can be an impediment to 
what we need. Some challenges, terrorism, whether it's 
international or home-grown--it's important that we recognize 
that we have both, and we have had experience with both in this 
county. Large scale disasters and mass civil disturbance events 
are three examples of challenges which don't always lend 
themselves to purely local approaches.
    For that reason, in Washington State, our State Sheriffs 
and Chiefs Association has developed a statewide Law 
Enforcement Emergency Mobilization Plan, so that we can as 
seamlessly as possible work to support one another if any kind 
of disaster or mass civil disturbance or whatever breaks down.
    One of the things that we need to do--I need--is establish 
a stronger, more permanent interoperable communication system. 
And in Pierce County, this week an RFP will go out for a study 
on that. And the study will cost about $60,000. We are working 
to use Federal moneys to find out what we should do and how to 
wisely use resources. The study is intended to provide 
direction to the most cost effective approach to achieving 
interoperability. We want to be sure we get the best possible 
performance. And we really appreciate the Federal government's 
interest in this area as we carry it further.
    So I described the doctrine. I talked about some of our 
needs, our accomplishments. The question is, what is the proper 
role of the Federal Government from here on out. And the proper 
role starts with the idea that, as has already been said, no 
disaster or terrorist attack takes place at the Federal level. 
If you remember back to 9/11, even the Pentagon, when the plane 
crashed into the Pentagon, if you review the videotapes, you'll 
see Fairfax County Police, you'll see Alexandria Police. Even 
at the epicenter of what is Federal power, you see locals 
responding.
    In light of this, in light of the co-responsibilities we 
share, we don't intend to passively ask the Federal Government 
to solve our problems. But we do intend to ask the Federal 
Government to partner with us. And I've asked our Federal 
partners to consider a number of issues. One of them, is this 
really a good time to cut back on law enforcement technology 
funding? Mr. Pascrell talked about that. Planning, procuring 
and deploying interoperative communications is essential for 
what we need to do. Cutbacks on that may not be the right 
signal to send at this time.
    I would ask that we have the ability to hire personnel to 
deal with disasters and terrorism issues.
    Mr. Chairman, you've heard me say that we have a circuit of 
gas masks to respond to real events. To prevent events, you 
need human beings, not just equipment. If it is true that, in 
the international scene, we are in the midst of something that 
might be called World War IV. World War IV requires sacrifice 
on everybody's part, sacrifice on the part of local officials, 
on the part of the Federal Government, and especially on the 
part of citizens to step forward and confront challenges. So we 
at the local level believe we have a responsibility to step 
forward. We believe it when the President and the Congress tell 
us that we're on the frontline of terrorism.
    In February we had a major county sheriffs, inner city 
chiefs meeting in Washington. We heard praise for our effort, 
and I'm sure that praise was very sincere and heartfelt. But we 
also heard an inconsistent message, that is cutbacks in the 
COPS Programs and personnel, cutbacks in technology.
    I would ask the gentlemen that you take back to Washington 
that we're willing to do our part, and we're willing to step 
forward. We're not interested in just passively holding up our 
hands. We're interested in rolling up our sleeves and doing the 
work. We would ask that you join us in that, especially when it 
comes to resources.
    We believe that public safety is not a spectator sport. We 
say that to our citizens, and we ask that our Federal partners 
not just cheer us along, but also stay in the game and help us 
out in the field. We ask that you help simplify the 
preparedness grants, that you help us prioritize, and that you 
help us and help the citizens of the United States. Those of us 
at the point of the spear are the reason actually that the 
spear exists. And the point of the spear are the local first 
responders.
    Mr. Reichert. Thank you, Paul. Assistant Chief Vickery.

  STATEMENT OF A.D. VICKERY, ASSISTANT CHIEF, CITY OF SEATTLE 
                        FIRE DEPARTMENT

    Mr. Vickery. Chairman Reichert, Congressman Pascrell, thank 
you.
    Just a little background, I have been in fire service 40 
years, and I was able to respond to the Oklahoma City bombing, 
the 9/11 terrorist attack, the FEMA-sponsored Urban Search and 
Rescue. I'm really unique in that I was also trained as a 
police officer when I headed the fire investigation unit.
    This is a great opportunity. Never before, 25 years ago 
when I was sitting on a panel with a sheriff on one side and 
public health official on another. I think it shows we've come 
a long way in a very short amount of time.
    I'd like to emphasize some areas where I think significant 
progress is made from those of us down here in the trenches. 
I've also lived in the trench, in the bottom of the trench. And 
never in my 40 years of service have I ever seen the level of 
cooperation and mutual respect law enforcement and the fire 
service have for each other as we do now. It's truly a 
realization that we've been covering each other's back.
    Secondly, I think there have been some big strides. 
Previous to the National Incident Management System, when the 
sheriff stood up and pointed and said ``fire,'' I ducked; and 
when I stood up and said ``fire,'' he grabbed the hoses. Now 
what we have is a system of language called the National 
Incident Management System, so that when we do communicate, 
even though we don't have the relationships face-to-face, that 
we're talking the same language. This is a huge step forward.
    That language ties in with the National Response Plan. If 
we would all read it and practice it at the Federal and State 
and local level, it gives us a strategy as well as a language 
that we can use from all facets of the first response 
community.
    Risk-based funding, and it sounds good, but in practice 
this is going to be a challenge, because all of America is 
faced with risk. I do think that focusing our limited resources 
on areas where we have identified and shared that risk, it's 
very difficult for us to get information from the Federal 
Government on where the risk really exists. I think the sheriff 
and I and the public health feel the risk, but we're not 
getting a lot of help in qualifying that.
    I don't know what the terrorists are going to do next, but 
I do know what they have done; they've killed people. And where 
you have large concentrations of people, we have a greater risk 
simply because of the density of the population.
    So from that standpoint, we need to look at focusing where 
there are large concentrations of people whether they are 
transient or that's where they live.
    A new Director for FEMA, I think we all need to fully 
support the confirmation of Chief David Paulison as the new 
Director of FEMA. He's got 30 years of response experience. 
Let's let him use it for the next disaster.
    The focus on terrorism response is not at counter purposes 
to responding to a naturally-occurring event. If I can respond 
to a terror event, I should be able to respond to a naturally-
occurring event.
    The communication systems, the interoperability of the 
equipment are applicable. But the difference with a terror 
event is my partnership with law enforcement becomes 
significantly more important. To bring those to justice who 
have committed the crime, to protect the evidence, but we also 
focus on one thing--saving lives. And the tools we learn to 
respond to terrorism are effective at saving lives in a non-
terrorist event.
    I believe truly here that the risks that we have--and each 
time I get closer to Mount Rainier, I get a little more 
sensitive. I look behind my back to see if the mud flow is 
coming towards me right now.
    So when it comes to responding, in my experience, I do 
believe that there is such a thing as a perfect storm. I've 
never seen a perfect response in 40 years. We can always 
improve our capability to respond.
    What areas do I feel that we need enhancement? 
Communications continue to hamper our ability to appropriately 
respond to and provide for the safety of the first response 
community. I applaud the fact that we have patches in 
technological, but right now I can't talk to a firefighter in a 
building that's 30 feet away from me. The radio doesn't go 
through the building. I don't know where it is in the building, 
nor do I know where those police officers or assistants, where 
they are in the building. So if something happens, can I 
protect them?
    I've got 1,000 members on the Seattle Fire Department and 
600 radios. That means that when there is an emergency of a 
significant magnitude, I don't have enough radios for all the 
firefighters who could be called to the scene.
    The United States military utilizes satellites in their 
communication systems, and it really doesn't matter if a 
hurricane wipes everything off the map, they bounce the signals 
off the satellites. I can go to Mexico for vacation and get 
satellite TV. They beam signals all over the world. Why can't 
we have a federally-funded public safety communications system 
similar to the military but not compromising the military's 
need for secrecy.
    People are our most valuable asset. I agree with the 
sheriff. I've got 100 gas masks and 25 fire engines, but if we 
don't put people on them, we just don't have the capacity to 
respond.
    Right now in the City of Seattle today, there are about a 
million people. There are 300--a little over 300 police and 
fire on duty. When that bell hits or that patrol car gets the 
call to respond, 300 people is a challenge when you've got a 
million potential people that you're going to deal with. 
Staffing will continue to be a significant issue, and I think 
that we need to continue to look at Federal support for 
staffing both law enforcement, fire and EMS.
    I can't help but look at the port. And I see these enormous 
cranes that just came in on a ship here a couple weeks ago. I 
see a port in both Tacoma and Seattle that is surrounded by a 
city unique in many areas; a port that 22 illegal immigrants 
came in, and from the grace of God they were not hostile. They 
were actually friendly and looking to get a job in this 
country. And the security guard, first they were identified by 
a crane operator, and then the security guard was nice enough 
to talk to them, smile, and put them in a van. I'm glad their 
intentions were not hostile. They could have put us at great 
risk.
    So I think we need to continue to emphasize that port 
security is a critical issue, not only in the prevention of 
interdiction but in the capability to respond if an incident 
does occur, and to get our ports back operating if an attack 
did occur, either an accident or an intention.
    Mr. Reichert. Chief, if I can interrupt just for a second, 
Mr. Pascrell has to catch an airplane. If we can keep our 
comments to five minutes for the rest of the panel. Thank you.
    Mr. Vickery. I urge that we fully fund FEMA and populate 
the agency with professional responders. Without adequate 
funding for FEMA, it doesn't matter who's at FEMA. Thank you 
very much.
    [The statement of Mr. Vickery follows:]

                   Prepared Statement of A.D. Vickery

    Welcome, I'm A.D. Vickery, Assistant Chief of the Seattle Fire 
Department. I entered the Fire Service in 1966 and, over the past 40 
years, have responded to thousands of emergencies. I responded to the 
Oklahoma City Bombing, the 9/11 Terrorist Attack on New York City, and 
Hurricanes as a member of our FEMA sponsored Urban Search and Rescue 
(US&R) Team. As head of the Seattle Fire Investigation Unit I completed 
basic Law Enforcement training and held a Police commission. I've 
worked as a firefighter/paramedic for 12 years in Seattle.
    Preparedness and response to emergencies must build on local 
capability. The emphasis in government needs to focus on funding and 
supporting local capability.
    I would like to address areas where significant progress is being 
made, and then areas where enhancements are needed related to local 
fire, hazmat, and field emergency medical services.

Areas of Significant Progress
        <bullet> Never in my 40 years of service have I seen this high 
        a level of cooperation and mutual respect exist between the 
        Fire Service and Law Enforcement. Terrorism has taught us that 
        we are mutually dependent. This realization has allowed us to 
        integrate resources and command structures, reduce duplication 
        of effort and standardize equipment.
        <bullet> Emergency responders now have a common ``language'' 
        and game plan which integrates local, state, federal and 
        military resources. The common language is the National 
        Incident Management System (NIMS). Previously, when the Sheriff 
        points and yells ``fire'' it didn't mean the same thing as the 
        Fire Chief yelling ``fire''. NIMS provides the baseline for 
        emergency response operations and communication.

        The National Response Plan (NRP) provides the structure for how 
        local, state, federal and military assets interact and support 
        each other. We all have to read it and remember it.
        <bullet> Risk based funding. All of America is at risk, from 
        nature and terrorists. Certain areas are at a higher risk. I 
        don't purport to know what a terrorist is going to do next, but 
        I do know what they have done. They kill people, and they kill 
        people in large numbers.
        <bullet> A new Director for FEMA. We need to fully support the 
        confirmation of Chief David Paulison as the new Director of 
        FEMA! Chief Paulison has over 30 years of response experience. 
        Let's let him use it.
        <bullet> The focus on terrorism response is not at counter 
        purposes to responding to natural disasters. If you can respond 
        to a terrorist incident, you can respond to a natural disaster. 
        I do believe that there is such a thing as the ``perfect 
        storm,'' I've never seen a ``perfect response''. We do, 
        however, need to balance our exercises and training to include 
        natural disasters as a component of our overall preparedness.

Areas which Need Enhancement
        <bullet> Communications continue to hamper our ability to 
        respond effectively and efficiently. We need hardware and 
        redundant systems. In Seattle, the Fire Department has 1,000 
        members but we only have 600 radios. In a disaster, 400 of our 
        firefighters will not have radios.

        There continues to be significant gaps in police, fire, EMS and 
        Emergency Management communication interoperability. The United 
        States military utilizes satellites for ground communications, 
        why can't the government put up communication satellites for 
        Public Safety? We get satellite TV all over the United States, 
        why not provide redundancy for first responders using similar 
        technology?
        <bullet> People are our most valuable asset. We need to provide 
        federal staffing support for local fire and law enforcement 
        agencies. In Seattle we have approximately 350 police and 
        firefighters on-duty for a daytime population of 1 million 
        people compressed into 90 square miles. We simply do not have 
        adequate staffing to deal with emergencies out of the ordinary.
        <bullet> We need to significantly increase funding to improve 
        Port security and response. Our major ports are critical assets 
        and there aren't a lot of them, and they are soft targets. 
        Unlike many major ports, the Cities of Seattle and Tacoma 
        surround their ports. This puts residents at risk. We need to 
        fund prevention, response and recovery planning and resources.
        <bullet> As a responder, when a disaster occurs, I need 
        equipment to continue the response when my local supplies are 
        consumed. We need to fully fund the Prepositioned Equipment 
        Packages which were recently utilized in Hurricane Katrina to 
        reconstitute local public safety agencies. This program has 
        been transferred to FEMA without adequate funding. It 
        absolutely needs to be supported.
        <bullet> Fully fund FEMA and populate the agency with 
        professional responders. Without adequate funding it doesn't 
        matter who FEMA reports to.
        <bullet> Increase funding to high risk cities and urban areas. 
        Both natural disasters and terrorists will likely kill and 
        injure more people in densely populated areas.
        <bullet> Improve our ability to respond to multiple casualty 
        incidents. We have a local capacity to deal with dozens of 
        injured victims, we need the capacity to deal with hundreds. It 
        doesn't currently exist. We need mass casualty field surge 
        capability.
        <bullet> We need to provide the public with a continuing stream 
        of factual information which will allow them to be self-
        sufficient for days instead of hours. Never underestimate the 
        ability of the American public to weed out fact from fiction.
    In summary, we are making progress in our efforts to improve 
Homeland Security for prevention, response and recovery from natural 
and manmade disasters. Success will depend on commitment and a 
combination of local resources and sustained federal supplemental 
funding.
    Thank you.

    Mr. Reichert. Thank you, Chief.
    Mr. Loehr.

 STATEMENT OF MICHAEL LOEHR, DIRECTOR OF PREPAREDNESS, PUBLIC 
                HEALTH, SEATTLE AND KING COUNTY

    Mr. Loehr. Thank you, Mr. Chairman and Congressman 
Pascrell, for the opportunity to speak with you this morning on 
a subject that is critical to the continued health and safety 
of our region's residents.
    Local health departments have always had a role in disaster 
preparedness and response. Since 9/11, we've seen significant 
changes in the threats we face and the level of preparedness we 
need to achieve. In just a short time frame, we've seen a wave 
of disasters around the world with significant public health 
consequences including the anthrax attacks of February of 2001, 
the SARS outbreak in 2003, tsunamis, Hurricanes Katrina and 
Rita, the Madrid and London bombings, and now avian flu and the 
threat of pandemic influenza.
    All of these events have focused a spotlight on the 
Nation's public health infrastructure and its ability to manage 
the health consequences of emergencies.
    In order to meet these new challenges, we have forged 
relationships with our health care system partners, our first 
responders, community-based organizations and emergency 
managers, and are much better integrated into each other's 
plans. I echo the Chief's comment that, four years ago, we were 
not in any means together, and now I cannot get away from him. 
It's a very good thing.
    The results of these partnerships can be seen in newly 
developed response capabilities such as the isolation and 
quarantine of infectious patients and the ability to dispense 
large amounts of antibiotics to a large number of people in a 
very short time.
    We have also developed a countywide disease surveillance 
system in concert with such varied partners as hospitals, 911 
dispatch centers and schools, but we cannot afford to stop 
here. I'd like to offer some specific examples of how we can 
improve coordination across all levels of government and 
response systems through better integration of planning, 
response and resources.
    First, we need to improve the way the Federal funding is 
provided for preparedness so that integration, not 
fragmentation, is supported.
    Over the past four years, public health and hospitals in 
King County have become fully integrated into homeland security 
planning, strategic development and exercise. The TOPOFF 2 
exercise in 2003, and our bioterrorism planning efforts 
demonstrate close coordination across disciplines. We have 
established a Health Care Coalition with over 25 partner 
organizations that is developing new protocols for making 
critical, system-wide decisions, managing information and 
allocating resources. This will foster a unified command 
approach to health and medical response countywide, something 
that's totally new in our county, and I think it's actually 
revolutionary nationwide.
    However, Federal funding priorities for public health and 
hospitals are focused on specific response tasks, specific 
hazards and equipment. This fails to recognize that a systemic 
approach to health care preparedness is needed. Hospitals, 
public health, clinics, medical practices, and pharmacies all 
rely on each other during disasters. Planning, training, 
exercising and responding as an integrated system should be 
fully supported, if not required, by funding programs.
    Just now, we're beginning to see this change. The latest 
guidance for hospital grants from Health Services and Resources 
Administration, HRSA, begins to take a systems approach to 
preparedness for hospitals. This should be incorporated 
throughout all Federal grant programs. There is no strategy for 
total health care preparedness at the national level, and there 
hasn't been for four years. That is probably the greatest 
tragedy in public health preparedness that we've seen; there's 
simply no organized set of priorities, no incorporation of 
local priorities. As Congressman Pascrell mentioned, it is not 
a top-down system. It shouldn't be. Locals should be 
communicating what the priorities are and have a say in how the 
resources should be allocated.
    Secondly, the ability to share real-time data with response 
partners needs to be expanded beyond voice capabilities and 
beyond traditional first responders. We have over 7,000 medical 
professionals in King County that we rely upon as the eyes and 
ears of our health care system. As public health threats 
emerge, paramedics and hospital staff will be on the frontlines 
responding to the threat. They are the ones who will likely 
detect the first signs for bioterrorism or potentially 
threatening diseases in our community.
    Yet, there is no reliable system in place to share critical 
data between public health and medical professionals. Today 
it's the fax machine. The hardware and software necessary to 
track and communicate critical health data between public 
health and medical professionals is lacking across the county.
    Public health response measures including isolation and 
quarantine of infected patients, and mass dispensing of 
medications require robust data-tracking systems to monitor in 
real-time the patients, their status, and the care they have 
received, wherever they may be located. These are critical 
infrastructure needs nationwide.
    Third, training resources must become a Federal priority 
and must be appropriate for public health responders. Federal 
grant requirements for public health have focused primarily on 
developing response plans; and for hospitals the focus has been 
primarily on acquiring equipment. Yet training personnel to 
implement an effective response is essential.
    Training resources provided by the Department of Homeland 
Security simply aren't relevant to the needs and 
responsibilities of health system responders. Specialized 
training necessary to carry out specific health-related plans 
for mass dispensing of antibiotics or isolating large numbers 
of infectious patients is not eligible under Homeland Security 
grants and not resourced under CDC or HRSA grants, so we're 
left basically either not training or eating the cost.
    In addition, training resources should be more flexible and 
accommodate the needs of health care organizations.
    In summary, partnerships are the cornerstone of emergency 
response. We've seen the benefits when they've worked well and 
witnessed the disastrous consequences when they have not. 
Federal policies and practices can make a tremendous difference 
in determining whether the preparations of responding agencies 
and institutions will be in concert or at odds when the next 
disaster comes.
    Thank you very much for the opportunity to speak to you.
    [The statement of Mr. Loehr follows:]

                  Prepared Statement of Michael Loehr

    Thank you for the opportunity to testify this morning on a subject 
critical to the continued health and safety of our region's residents.
    Local health departments have always had a role in disaster 
preparedness and response, but since 9/11 we have seen significant 
changes in the threats we face and the level of preparedness we need to 
achieve.
    In just a short time span, we've seen a wave of disasters around 
the world with significant Public Health consequences, including 
anthrax attacks, SARS, tsunamis, Hurricanes Katrina and Rita, Madrid 
and London bombings, and now avian flu and the potential for a pandemic 
flu.
    All these events have focused a spotlight on the nation's Public 
Health infrastructure and its ability to manage the health consequences 
of emergencies.
    In order to meet these new challenges, we have forged relationships 
with our health care system partners, first responders, community based 
organizations and emergency managers, and are much better integrated 
into each others plans. The results of these partnerships can be seen 
in newly developed response capabilities addressing isolation and 
quarantine of infectious patients and mass dispensing of medications.
    We have also developed a county-wide disease surveillance system in 
concert with such varied partners as hospitals, 911 dispatch centers, 
and schools.
    But we can't afford to stop here.
    I'd like to offer some specific examples of how we can improve 
coordination across all response disciplines, through better 
integration of planning, response and resources.
    First, we need to improve the way that federal funding is provided 
for preparedness so that integration, not fragmentation, is supported.
    Over the past four years, public health and hospitals in King 
County have become fully integrated into homeland security planning, 
strategy development, and exercises. The TOPOFF 2 exercise in 2003, and 
our bioterrorism planning efforts demonstrate close coordination across 
disciplines. We have established a Health Care Coalition with over 25 
partner organizations that is developing new protocols for making 
critical, system-wide decisions, managing information and allocating 
resources. This will foster a unified command approach to health and 
medical response will occur countywide.
    However, federal funding priorities for public health and hospitals 
have focused on specific response tasks, hazards and equipment. This 
fails to recognize that a systemic approach to health care preparedness 
is needed. Hospitals, public health, clinics, medical practices, and 
pharmacies all rely on each other during disasters. Planning, training, 
exercising and responding as an integrated system should be fully 
supported, if not required, by funding programs.
    Just now, we are seeing this beginning to change. The latest 
guidance for hospital grants from Health Services and Resource 
Administration (HRSA) begins to take a systems approach to preparedness 
for hospitals. This should be incorporated throughout all federal grant 
programs.
    Second, the ability to share real-time data with response partners 
needs to be expanded beyond voice capabilities, and beyond traditional 
first responders. We have over 7,000 medical professionals in King 
County that we rely upon as the eyes and ears of our health care 
system. As public health threats emerge, paramedics and hospital staff 
will be on the front lines responding to the threat. They are the ones 
who will likely detect the first signs for bioterrorism or potentially 
threatening diseases in our community.
    Yet, there is no reliable system in place to share critical data 
between public health and medical professionals. The hardware and 
software necessary to track and communicate critical health data 
between public health and medical professionals is lacking across the 
country.
    Public health response measures including isolation and quarantine 
of infected patients, and mass dispensing of medications require robust 
data tracking systems to monitor in real time the patients, their 
status, and the care they have received, wherever they may be located. 
These are critical infrastructure needs nationwide.
    The capability to rapidly communicate and track data with health 
care providers is as important to us as it is for fire and police to 
communicate with their colleagues in the field. We believe the federal 
government can play a critical role in supporting this need.
    Third, training resources must become a federal priority and must 
be appropriate for public health responders.
    Federal grant requirements for public health have focused primarily 
on developing response plans; for hospitals the focus has been on 
acquiring equipment. Yet training personnel to implement an effective 
response is essential.
    Training resources provided by the Department of Homeland Security 
aren't relevant to the needs or responsibilities of health system 
responders. Specialized training necessary to carry out plans for mass 
dispensing of antibiotics or isolating large numbers of infectious 
patients is not eligible under Homeland Security grants and not 
resourced under CDC or HRSA grants.
    In addition, training resources should be more flexible and 
accommodate the needs of health care organizations. For many health 
care organizations, including our department, a large number of staff 
that will be relied upon for emergency response support generate 
patient revenues as part of their daily responsibilities.
    Removing them from their regular work creates a double impact in 
cost--not only for the hours spent for training itself, but for the 
revenue lost in not seeing patients. Especially in the current state of 
health care economics, it makes it very difficult for health care 
organizations to train at the level that's needed.
    Partnerships are the cornerstone of emergency response. We've seen 
the benefits when they have worked well, and witnessed the disastrous 
consequences when they haven't. Federal policies and practices can make 
a tremendous difference in determining whether the preparations of 
responding agencies and institutions will be in concert or at odds when 
the next disaster comes.
    We appreciate your time and interest today, and we stand ready to 
work with you to further improve our collective preparedness efforts.

    Mr. Reichert. Thank you, Mr. Loehr.
    Mr. Pugh.

 STATEMENT OF WILLIAM ``BILL'' PUGH, DIRECTOR OF PUBLIC WORKS/
             ASSISTANT CITY MANAGER, CITY OF TACOMA

    Mr. Pugh. Good morning, Chairman Reichert, Ranking Member 
Pascrell. My name is Bill Pugh. I'm the Assistant City Manager 
and Public Works Director for the City of Tacoma. I have to 
confess, I'm a little different from the prior people who have 
spoken. I'm an engineer, a little bit of an anomaly in this 
crowd.
    I'm here today on behalf of American Public Works 
Association's 27,000 members and nearly 2,000 public agency 
members. Public Works officials are first responders. We clear 
transportation routes, we assess government and primary public 
buildings, we work alongside police, fire and emergency service 
professionals to ensure that water is flowing through fire 
hoses, traffic lights are operating and traffic is moving, 
barricades are up, debris is removed, and the public is safe. 
We are often the last to leave the scene as we manage the 
lengthy cleanup and restoration of any disaster site.
    I appreciate the opportunity to speak to you about 
emergency and planning preparedness and the indispensable role 
it plays in securing the safety of our communities. APWA has 
been and will continue to be an advocate for the development of 
emergency plans which coordinate emergency response across all 
levels of government in a way that saves lives, property and 
restores critical lifelines.
    One of the most important components when planning for 
catastrophe is effective coordination between all of the 
response players. While the primary focus of such preparation 
has usually been centered on first-responders, it is crucial 
not to overlook the significant preparedness roles that are 
played by all levels of government, and not just the local 
community in which the disaster is taking place.
    For example, during Hurricane Katrina, there was a total 
breakdown in communications between the Federal, State and 
local governments. As a result, response plans were left 
unimplemented, and valuable time was lost trying to restore 
basic order to the disaster zone. This could easily have been 
avoided. Had many Gulf communities practiced their preparedness 
plans or coordinated with other levels of government before 
this hurricane season, hopefully a lot of this could have been 
avoided. However, even the best plans can fail when faced with 
an unexpected catastrophe. This is why the APWA feels it is 
even more important to communicate with the government at all 
levels before an emergency and become familiar with the 
preparedness plans of others. This way, we can identify where 
there are bottlenecks, weak spots, and other inconsistencies 
and then to work together to develop the most efficient 
recovery and response plan possible.
    I'd like to give you two local examples of where I think 
communications have worked well and not so well. First, during 
the Katrina aftermath, local agencies within the Puget Sound 
area met to plan for the possible evacuees. All of those 
agencies attended, and the State agencies were conferenced in 
by phone. The groups soon discovered that they were working on 
very similar planning and preparedness issues, and agreed to 
meet together to strengthen and consolidate their efforts. 
Although invited, no one from FEMA attended either of these 
meetings.
    Second, the military bases, McChord Air Force Base and Fort 
Lewis, have a major presence in the south Sound region. As 
such, they have the potential to offer significant resources in 
a major disaster. Pierce County local government has an 
excellent relationship with the command staff of both of these 
bases and has entered into a mutual aid agreement with McChord 
and Fort Lewis. If disaster strikes and the military forces are 
available, help from them will be also.
    And at this point, I'd like to give credit to one of your 
panelists up here before, Steve Bailey. Through that 
partnership, they're able to develop that interagency 
agreement, which I think is the first one in the Nation.
    Disasters are inherently local by their nature. They 
involve men and women providing critical services to preserve 
public health and protect life and public property. How well 
they do their job depends on how well we support them. How well 
we support them depends on how well we communicate. How well we 
communicate depends on the strength of the relationship. If the 
relationship falls apart at the top, the men and women 
providing the critical services will be impacted, and our 
citizens will suffer the consequences.
    The role of the Federal Government is to assist local 
agencies when disaster strikes by providing the necessary 
support and resources to mitigate the disaster. We look forward 
to and rely on that help. The Federal Government, in turn, 
needs to rely on the local leadership to prioritize and deploy 
those resources. This can only be done well only if we work 
well together.
    Now that we've developed our local, State and Federal 
emergency response plans, let's develop the relationships so 
they can be successfully implemented. Get to know your local 
emergency management professional. Develop that relationship 
and that partnership. Do it soon before the next disaster 
strikes.
    Mr. Chairman, Ranking Member Pascrell, on behalf of the 
APWA, I'd like to thank you again for the opportunity to 
testify this morning. As has been mentioned a couple three 
times so far, Deputy Chief Jeff Jensen of the Tacoma Fire 
Department, who is with me is also one of our critical partners 
in Pierce County.
    I look forward to answering any questions you may have.
    Mr. Reichert. Thank you, Mr. Pugh.
    Mr. Serra.

STATEMENT OF ROGER C. SERRA, DIRECTOR OF SECURITY AND EMERGENCY 
                 MANAGEMENT, SEATTLE CITY LIGHT

    Mr. Serra. Chairman Reichert and Mr. Pascrell, thank you 
for this opportunity to share my observations and comments 
regarding the efforts now being taken for the protection our 
critical infrastructures, specifically in the energy sector.
    As introduced, I am the current Director of Security and 
Emergency Management for the Seattle City Light. Prior to this 
position, I was Director of Emergency Management for Snohomish 
County, and also have served as the police chief.
    I also have the distinction to have served in the United 
States Army where my last assignment was as the Department of 
Defense liaison for Military Support for Civil Authorities for 
the entire FEMA Region 10. I have been involved in State, local 
and Federal activities, and I actively have served on the State 
committee of Homeland Security and chaired the government 
subcommittee that produced the Washington general analytical 
center and the regional intelligence centers that has become a 
model across the United States for intelligence issues.
    I make reference to these career experiences basically to 
reflect that my diverse career has given me the rare 
opportunity to approach emergency management from different 
perspectives that clearly illustrate the interdependency of all 
the disciplines to plan collaboratively.
    Seattle City Light, a department of the City of Seattle, is 
one of the Nation's largest municipally-owned utilities in 
terms of the number of customers it serves. Seattle City Light 
has a service area of 131 square miles and serves more than 
340,000 customers and a population exceeding 680,000.
    Seattle City Light provides the primary power for the city 
and the government offices and operations. Its criticality for 
the region relies on electricity to maintain continuity of 
government functions and the syntax with the major corporations 
located in the Greater Puget Sound cannot be overstated. Much 
of our efforts to date have been to install security 
enhancement features and reevaluation of accessibility to the 
public that previously were accessible but now are restricted.
    Regional collaboration with the other public utilities in 
the area is imperative and one which has been cited as a best 
practice initiative in managing emergencies by the American 
Public Power Association study of how leading companies have 
implemented effective and comprehensive emergency planning. 
This was all self initiated without the funding from the 
Federal Government.
    Also cited in the best practices initiative was that the 
excellent relations shift in former regionally liaison 
established in the northwest utilities are the foundation for 
successful emergency response and provide valuable insight for 
other utilities to emulate. The utilities rely on cooperation 
among multiple functions to handle emergencies and communicate 
with all involved parties.
    Critical infrastructure protection is listed as one of the 
Department of Homeland Security's national priorities, and as 
such it deserves priority for appropriate funding, to design, 
improve and enhance the physical security information 
technology and communication systems. Unfortunately, critical 
infrastructure does not have the same attention as first 
responders would get when it comes to the funding mechanism.
    Programs such as the Buffer Zone Protection Planning have 
been beneficial but one that still needs Federal emphasis that 
provides assistance for conducting effective risk and 
vulnerability assessments and funds to implement the 
recommendations made in the assessments. Energy generation 
facilities such as dams, power lines, substations are highly 
visible facilities that have great exposure to threats of 
attack. Partnering with law enforcement measures employed by--
employed in the Conservation of Environmental Design Program, 
CEDP, are now being utilized and implemented in how to protect 
our own facilities. Mutual cooperation among law enforcement 
agencies at the local, county, State and Federal levels is 
crucial for the protection of critical infrastructure such as 
Seattle City Light boundary dam located in Pend Oreille County, 
which is contiguous with the Canadian border. This underscores 
the need for interoperable communications among law enforcement 
as well as those people who have to protect our critical 
infrastructures. There is now a greater focus for hiring 
dedicated and professional security staff to handle the 
responsibilities of security and emergency management in the 
power industry that previously were defined as additional 
duties to individuals in the organization with excellent 
operational knowledge but limited security experience. This 
professionalism is a reflection of the industry's commitment to 
making sure that things are done properly and consistently with 
industry standards. Emphasis for continuity of population 
planning is necessary to ensuring that essential functions are 
performed and priorities established for the restoration of 
power to those sectors considered vital to the protection of 
life and property.
    The power industry also recognizes that it must do a better 
job of communicating to other infrastructure providers when 
service will be restored and utilize technology that provides 
the capability to alert its employees and customers during a 
disaster. Equally important is the need to develop an effective 
early warning system that partners with law enforcement, with 
public and private enterprises, and ensuring that appropriate 
intelligence is shared on a timely basis.
    National organizations such as the North American Electric 
Reliability Council, the large public council, and the Western 
Electric Coordinating Council serve to network the growing 
number of utility security emergency management practitioners.
    Issues for your consideration is provide directly funds for 
agencies operating critical infrastructures for the purpose of 
conducting risk and vulnerability assessment, development of 
operations plans, conducting exercises and for the purchase and 
installation of voice and data communication systems, state of 
the art IT systems and equipment necessary to enhance physical 
security; expand the list of facilities to qualify for Buffer 
Zone Protection planning and increase the amount of 
implementing effective protective systems.
    The National Infrastructure Database is out of date; 
establish regional Department of Homeland Security offices that 
improve coordination and interaction with its regional 
partners.
    The opportunity to share our concerns, strengths and 
initiatives with your committee is appreciated, and I'm 
prepared to answer any questions you may have regarding that 
subject.
    [The statement of Mr. Serra follows:]

                   Prepared Statement of Roger Serra

    Mr. Chairman and members of the House Committee on Homeland 
Security?s Subcommittee on Emergency Preparedness, Science and 
Technology, thank you for this opportunity to share my observations and 
comments regarding the efforts now being taken in the protection of our 
critical infrastructures--specifically in the energy sector.
    My name is Roger Serra. I am the Director of Security and Emergency 
Management for the Seattle City Light. Prior to this position I was the 
Director of the Snohomish County Department of Emergency Management and 
before that I was the Chief of Police for the University of Washington. 
It is also my distinct honor to have served in the United States Army 
where I retired as a Colonel with my last assignment as the Principal 
Regional Emergency Preparedness Liaison Officer for FEMA Region X 
serving as the DOD Liaison for Military Support to Civil Authorities. I 
have been involved at the local, state and federal level in the areas 
of emergency management and homeland security. I served on the State's 
Committee on Homeland Security representing local emergency managers 
and chaired the committee?s Intelligence Sub-committee where we 
developed the concept of the Washington State Joint Analytical Joint 
Center and the Regional Intelligence Centers. It was also my privilege 
to serve as the President of the Washington State Emergency Management 
Association.
    Seattle City Light, a department of the City of Seattle, is one of 
the nation's largest municipally owned utilities in terms of the number 
of customers served. Seattle City Light has a service area of 131.3 
square miles and serves more than 345,000 customers and a population 
exceeding 680,000. Seattle City Light provides the primary power for 
the cities and county's governmental offices and operations. It's 
criticality to the region's reliance on electricity to maintain 
continuity of governmental functions and its impact to the major 
corporations located in the Greater Puget Sound Area cannot be 
overstated. Regional collaboration with the other public utilities in 
the area is imperative and one which has been cited as a Best Practice 
Initiative in Managing Emergencies by the American Public Power 
Association study of how leading companies have implemented effective 
and comprehensive emergency planning.
    Also cited in the Best Practices Initiative was that the excellent 
relationships and formal regional liaisons established in the Northwest 
utilities are the foundation for successful emergency response and 
provide valuable insights for other utilities to emulate. Utilities 
rely on cooperation among multiple functions to handle emergencies and 
communicate with all involved parties.
    Critical Infrastructure Protection is listed as one of the DHS 
National Priorities and as such deserves priority for appropriate 
funding designed to improve and enhance its physical, information 
technology and communications systems. Programs such as the Buffer Zone 
Protection Planning have been beneficial, but one that still needs 
federal emphasis that provides assistance for conducting effective 
risks and vulnerability assessments and funds to implement the 
recommendations made in the assessments. Energy generation facilities 
such as dams, power-lines and substations are highly visible facilities 
that have greater exposure to threats and attacks. Mitigation efforts 
such as utilizing the Crime Prevention Through Environmental Design 
(CPTED) measures to reduce vulnerabilities is one initiative, when 
applied, has proven effective. Mutual cooperation among law enforcement 
agencies at the local, county, state and federal levels is crucial for 
the protection of critical infrastructure such as the Seattle City 
Light Boundary Dam located in Pend Oreille County and the Canadian 
border.
    There is now a greater focus for hiring dedicated staff to handle 
the responsibilities of security and emergency management in the power 
industry that previously were assigned as ``additional duties'' to non-
qualified individuals in the organization. This professionalism is a 
reflection of the industry's commitment to making sure that things are 
done properly and consistent with industry standards.
    Emphasis for Continuity of Operations planning is necessary in 
ensuring that essential functions are performed and priorities 
established for the restoration of power to those sectors considered 
vital to the protection of life and property. The power industry also 
recognizes that it must do a better job of communicating to other 
infrastructure providers when service will be restored and utilize 
technology that provides the capability to alert its employees and 
customers during a disaster. Equally important is the need to develop 
an effective Threat Early Warning System (TEW) that partners law 
enforcement with both public and private in ensuring that appropriate 
intelligence is shared on a timely basis.
    National organizations such as the Large Public Power Council 
(LPPC) and the Western Electric Coordinating Council (WECC) serve to 
network the growing number of utility security and emergency management 
practitioners.

Issues for your consideration:
    Provide direct grant funds for agencies operating critical 
infrastructures for the purpose of conducting risk and vulnerability 
assessments, development of Continuity of Operations Plans, conducting 
exercise and for the purchase and installation of voice/data 
communications systems, state of the arts Information Technology 
systems and equipment necessary to enhance physical security.
    Expand list of facilities to qualify for Buffer Zone Protection 
planning and increase amounts for implementing effective protective 
systems.Establish Regional DHS offices to improve coordination and 
interaction with regional partners.
    The opportunity to share our concerns, strengths and initiatives 
with your committee is appreciated. I am prepared to answer any 
questions you may have regarding my roles and responsibilities.

    Mr. Reichert. Thank you, Mr. Serra. I have a few questions, 
and then I'll move to Mr. Pascrell. He'll have several 
questions also.
    Mr. Serra, are there critical infrastructure services of 
power, water, transportation, are they integrated into the UASI 
preparation plan?
    Mr. Serra. They are a component in the overall discussion 
on how the funds will be distributed. There is a group that 
meets to decide how those things are going to be.
    There is a preference for critical infrastructure. 
Unfortunately, we only have one representative that represents 
all the utilities in the UASI program, and that process is 
something that I'm just now beginning to better understand 
having just come to Seattle recently. But there is a role, and 
there is a position that we have in the overall discussion. And 
certainly with the new grant guidelines for the fiscal year 06 
grants for investment justification, critical infrastructure 
was one of the areas that rose to the top as one that required 
some immediate attention.
    Mr. Reichert. So it may play a greater role?
    Mr. Serra. We are hoping it will play a greater role in 
this area.
    Mr. Reichert. Mr. Pugh, is there an evacuation plan for the 
City of Tacoma?
    Mr. Pugh. Yes, there is. As to exactly what it is, I don't 
know. I'd have to yield to Chief Jensen.
    Mr. Reichert. The next question was, does the Department of 
Public Works have a part in that plan?
    Mr. Pugh. We have had a part in that plan. And I'll tell 
you frankly, we haven't in the recent years had the involvement 
that we need to. And I don't think that's through any fault of 
really the fire department or anybody else. I think that 
involvement becomes with leadership from the top. There hasn't 
been leadership, at least from a management standpoint, within 
the City of Tacoma. And I recognize strongly that we need to 
get together and do our job better.
    Mr. Reichert. Any discussions taking place hopefully 
includes Public Works.
    Mr. Pugh. Yes. I think the partnership we've had over the 
last two or three years with Public Works and both police and 
fire has been stronger than it's probably been in the last 
fifteen.
    Mr. Reichert. So are there training opportunities and 
exercises for Public Works people to participate in in 
conjunction with the fire department and police department?
    Mr. Pugh. Yes, totally.
    Mr. Reichert. So that's happened?
    Mr. Pugh. Yes, it has.
    Mr. Reichert. What about the City of Seattle?
    Mr. Vickery. The Public Works is integrated into our 
Disaster Response Plans. In fact, we provided the equipment and 
training for all public employees and a select group of Public 
Works employees who would be engaged in the response. Public 
Works also includes the Department of Transportation. We can't 
move people or materials. You can get a front-end loader and 
push the street open, but how do you control the traffic. 
There's a very close line between law enforcement and the 
Department of Transportation. They are integrated into our 
plans.
    Mr. Reichert. Mr. Loehr, in the event of a pandemic, what 
in King County leads the way in that? Who is your primary 
Federal partner?
    Mr. Loehr. That's an excellent question. The health and 
medical response, as I mentioned, public health, particularly 
the local health officer, would direct the health and medical 
response. But we are changing significantly how we look at our 
health system and incorporating, as I mentioned, more of a 
unified command approach. The reason is hospitals simply don't 
have the capacity to operate facility by facility. Public 
health simply doesn't have the resources to operate independent 
and in competition with other health care entities. Again, this 
is revolutionary in the country. We are really operating as a 
single organism, a single entity, with a single person in 
charge, if necessary. And there are some tough decisions that 
we need to make, changing standards of care. People aren't 
going to recognize the health care system during a pandemic. 
They really won't. Making the decision to cancel elective 
surgery, it will be on the shoulders of the hospital CEO. 
There's going to be a health officer saying in every hospital, 
we're going to a red plan, or whatever you want to call it. Now 
is the time to implement it. So we feel very good at how our 
health care coalition is pulling hospital partners together.
    When it comes to other consequences in a pandemic, we will 
become a new government and pull society together. We do have a 
regional disaster plan in King County which even given that is 
a home rule state and a home rule county, somebody has to be in 
charge. But we recognize that we're going to have to make 
decisions in a cooperative manner, we're going to have to share 
some resources. Through our regional staffing plan, these 
organizations are going to have to work together.
    But when it comes to coordinating the Federal partners, I 
don't believe we have one for planning for a pandemic response. 
It has not been demonstrated to me at all that there is any 
strategy prepared at the Federal level for public health, and I 
certainly haven't seen any indication of Federal support for 
health and emergency management that I would consider 
reasonable or reliable.
    Mr. Reichert. Are you familiar with the position of the 
chief medical officer that has been implemented?
    Mr. Loehr. I have heard that that has occurred, and I'm 
curious as to how that person relates to other Federal health 
organizations, the CDC.
    Mr. Reichert. Hopefully we'll get that together.
    Mr. Loehr. Thank you.
    Mr. Reichert. One of the things that this Subcommittee will 
be focused on here in the future, once we've at least attempted 
to solve the interoperatively issue, is the health care 
preparedness issue. We understand, at least in our initial 
investigative questioning, that there is a concern--big concern 
about a service capacity. Can you explain that?
    Mr. Loehr. Yes, I can. The ability for any health 
organization to essentially create additional capacity, whether 
it's space or personnel, doesn't exist in this country. The 
health care system is a for-profit industry. Just like any 
other business, the idea is cost. And costs have been cut so 
drastically that there simply is no extra left in the system 
where we have an emergency. For example, for half of the 
hospitals in this country today, the situation is very similar 
to what was described after 9/11. They are operated 
overcapacity. You're seeing medicine performed in the hallways. 
And that exists in King County, and it exists in half of the 
hospitals in the country. There is no extra capacity.
    So the health care system are another issue that we 
certainly can't solve through any Federal preparedness grant. 
But with the cards we've been dealt, how do we use the system 
that we have most efficiently. It is not by funding specific 
response capabilities or specific pieces of equipment for 
hospitals; it's by looking at this system, as underresourced as 
it is, and overcapacity as a single entity where we can move 
resources around, at least within our own jurisdiction. And 
that has not happened in four years. It is beginning to happen, 
but a certain capacity is going to have to happen. We're 
talking about adding hospital beds. It's not going to be in the 
UASI hospitals; it's going to be a building like this where 
we're going to need cots, we're going to need medical supplies. 
We're going to have to use our own staffing. We're going to 
have to find our own facilities.
    Mr. Reichert. Thank you, Mr. Loehr. Chief Vickery, in 
tailoring responses to this specific region, what 
recommendations do you have to provide for early warning to the 
public?
    Mr. Vickery. I think it starts with an ability to share 
information with the response community, particularly in a 
terrorist event. I think what Pierce County has done with the 
sheriff down there with terrorism early warning center gives 
you an ability to scrub the material.
    As a firefighter, I do not need to know the ethnicity or 
the name of a perpetrator. I do need to know the threat. And 
the ability of a terrorism center to share that information 
with people who may not have a security clearance or who don't 
have the need to know--I hate to use that word--is very 
important. Then that information needs to be transmitted to the 
public in a way that doesn't create panic. And I don't think 
we're there yet.
    The fact that we're a red in the Nation doesn't really mean 
much to me. I love the color red on the planet right now. I 
love the color red. I'm all for it, but it doesn't mean much; 
what degree, what shade of red. Well, I think there's a 
necessity to change the alert system where it can be localized. 
And certainly even within our own region, the threat that you 
would have in Tacoma may not be at the same level as it is in 
Seattle based upon your population density and the nature of 
the threat. A threat that is the release of a substance, what's 
the weather, what are the weather conditions, what's the 
staffing. So we do not allow the local community the ability to 
just assimilate that information. It needs to be a graded 
threat system rather than red, yellow, green.
    Mr. Reichert. Mr. Pascrell.
    Mr. Pascrell. Thank you very much, and thank you for your 
forthright answers so far. And Chief, thank you for pointing 
out the lack of Federal funding, the COPS Interoperatively 
Program. That would be eliminated under the present budget or 
present proposed as redisposed, and we'll see what happens when 
we get going here.
    Chief Vickery, you know, we now have a FEMA Director. He's 
no longer active. He came up through the fire ranks, as you 
well know, the first fireman, first fire responder. That's the 
first, second or third level management in the entire Homeland 
Security. So we know the nature of the problem. We know the 
nature of the problem.
    And what we're trying to do is put some beef into the 
words. We need this to be a bottom-up situation. I think that 
is important, and you will feel better about each of your 
tasks, I think, if we do implement that.
    There have been suggestions that, in looking at FEMA--and 
as I said before, simply not rearranging the deck chairs on the 
Titanic, there will be some real change.
    Of the following, I would like to know what you think of 
each of these suggestions about FEMA in your experience. We 
need to have a fully-staffed FEMA within the Department of 
Homeland Security. Do you agree with that?
    Mr. Vickery. Professionally staffed.
    Mr. Pascrell. Do we have a fully-staffed FEMA right now?
    Mr. Vickery. To the best of my knowledge, no. They're still 
at somewhere 30 percent the positions have not been filled.
    Mr. Pascrell. That's correct. Second, preparedness and 
response be recombined at FEMA, we've talked about that in the 
first panel. I would probably think they would agree with that. 
Do you?
    Mr. Vickery. When you say ``recombine,'' sir--
    Mr. Pascrell. Right now they're two separate divisions. 
Preparedness and response are no longer together in FEMA.
    Mr. Vickery. They need to be integrated. We can't prepare 
and respond separately.
    Mr. Pascrell. We now have an experienced emergency person 
at the top which we didn't have before. That's a good sign, 
correct?
    Mr. Vickery. It is, sir.
    Mr. Pascrell. And the Director of FEMA has direct contact 
with the President during incidents of national significance. 
Wouldn't you agree?
    Mr. Vickery. Absolutely.
    Mr. Pascrell. Here's my question. Do you think that these 
steps would take FEMA in the right direction that you want to 
go?
    Mr. Vickery. The answer is yes. And my empathy and support 
is of Chief Paulison for this reason: He stepped into a 
situation where the city is already half on fire. So I'm glad 
you appointed me fire chief of a city while it's burning.
    Mr. Pascrell. He's got to deal with the hand that he's 
dealt. He's a big enough person to do it. I am confident that 
he will do it. But just enough--the Director has to have direct 
access to the President of the United States. We cannot have to 
go through the Department of Homeland Security Secretary, Mr. 
Chertoff. In fact, in the testimony that came out, he said why 
bother, you know, what the heck is going down from?
    And Mr. Loehr, am I pronouncing that correctly?
    Mr. Loehr. Loehr.
    Mr. Pascrell. Loehr, I'm sorry. Do you sense urgency in any 
of the things--on a Federal level on any of the things that you 
brought up--
    Mr. Loehr. Well--
    Mr. Pascrell. --on the Federal--in the Federal Government.
    Mr. Loehr. I think there is urgency in the sense of certain 
programs that have been initiated for control for preparedness. 
There's an urgency in getting funding out and imposing 
requirements on local health departments to accomplish certain 
risks. There has been no urgency in actually developing the 
strategic approach, and I think one of the glaring deficiencies 
that I would see from the absence of a strategy is pandemic 
flu. Still no local jurisdiction in this country has received 
any funding for that yet. We're waiting for that. It's now on 
our doorstep, and we've been preparing for over two years.
    Mr. Pascrell. As you watch the spread of avian flu, if we 
chronicled this over the last two or three years, something is 
happening out there. Is it not?
    Mr. Loehr. Yeah. Half the world is now infected with avian 
flu. And it's estimated that within the next six months, it 
will come from Alaska, Canada into North America. And we're 
still waiting as a country to have some resources to fight 
that.
    Mr. Pascrell. You're waiting for the signal.
    Mr. Loehr. Right.
    Mr. Pascrell. Are the public hospitals in this county able 
to communicate with each other during emergencies?
    Mr. Loehr. Yes. I'm actually very happy to say we've been 
integrated with our response partners, police and fire, for a 
long time. They're experts when it comes to this type of 
communication. We've been integrated into their radio system. 
We have backup radio systems. We have an interactive website 
for sharing information about possible bed capacities; very 
crude, but it is effective.
    Mr. Pascrell. You talked about that there is such an 
environment when that happens. You talked about where the beds 
would be and how the hospitals might operate.
    Have you reached out to the HMOs, for instance, as to what 
their role would be in such an emergency situation?
    Mr. Loehr. Great question; absolutely. As part of the 
Health Care Coalition, we realized it's not just hospitals. 
There's a couple jurisdictions in the county that have looked 
at the hospitals as a single unit that we share our resources 
with. We have to go way beyond that. The health plans, large 
medical practices, they're got physicians, they've got nurses. 
And with the staffing shortage of 100,000 nurses in this 
country right now, we can't afford not to use everybody we can 
get our hands on. So they are directly part of our health care 
coalition just to make sure we prioritize our resources whether 
it's where do we find beds to where do we find staff.
    Mr. Pascrell. Mr. Serra, we've had many discussions in 
Washington about various infrastructures, let's say. How do you 
protect the chemical industry? New Jersey's big problem is a 
stretch along the New Jersey Turnpike that encompasses a 
tremendous part of the chemical industry in this country.
    The question is, who has that responsibility? Should we 
impose on the chemical companies, or should the Federal 
Government take charge? Is there a sense of urgency about that 
issue? My question to you is, how do you protect the utilities 
in your mind, and are we going in the right direction?
    Mr. Serra. I think there is a direction that we're going. I 
think it's a slow process. One of the things that I had 
evaluated in the last few years is that we're unable to 
determine what type of security enhancements need to be done or 
response before--until such time as we can do a risk and 
vulnerability assessment. To me the risk and vulnerability 
assessment is the first step in doing what we need to do in the 
future. There is no fund or a limited amount of funding, 
especially for--well, in the public sector to be able to 
conduct the assessments needed to do that and--
    Mr. Pascrell. Are you telling us that--we're waiting here, 
we're in the waiting room. You're not telling us that the 
utilities themselves have put a plan together to protect the 
infrastructure within that particular utility?
    Mr. Serra. No. I'm just saying--
    Mr. Pascrell. You're not saying that?
    Mr. Serra. No. We are doing--
    Mr. Pascrell. What are you saying?
    Mr. Serra. We are continuing to do the steps that we need 
to do in order to protect our present infrastructure.
    Mr. Pascrell. What does that mean? What are you doing? I 
want to ask you a specific question. Have you hired more people 
to protect the infrastructure of the utilities which provides 
energy, electricity, to folks in this area?
    Mr. Serra. The answer to that is no, we have not done that.
    Mr. Pascrell. How do you protect the industry then?
    Mr. Serra. The way we're doing it right now is to contract 
security to come in and do the security functions for those 
critical infrastructures.
    Mr. Pascrell. Would you repeat that, please?
    Mr. Serra. Contracting with private security firms to--
    Mr. Pascrell. Who are these private security firms?
    Mr. Serra. These are private security firms that are hired 
in the public and private sector that are private security 
agencies, not full-time--
    Mr. Pascrell. You're still not answering me, because as you 
saw with the airline industry, when they did it before 9/11, 
they hired rent-a-cops. It didn't work out, besides a lot of 
other things, and that's one of the reasons why they're being 
sued by some of the victims' families of 9/11. And we certainly 
wouldn't want that to happen in the energy area, would we?
    Mr. Serra. I share exactly your feelings. Coming into this 
field is that, you know, I think we need to have some full-time 
individuals that are specifically charged with the security of 
the critical infrastructures. As I mentioned in my comments is 
that, it's just recently that critical facilities like energy 
have begun to hire full-time security and emergency managers 
that understand what they're supposed to do. This is a function 
that had always been an additional duty for other people within 
the industry, and so it didn't have a priority that it probably 
should have had.
    I don't disagree with you that there should be full-time 
employees dedicated to the protection of those critical 
infrastructures, not hiring it out to other people to take care 
of those infrastructures.
    Mr. Pascrell. What I'm hearing from you, Mr. Serra, with 
all due respect is what I get from the chemical industry, and 
it is not acceptable. The public has a right to know that the 
very resources that they depend on day in and day out are, to 
the best of everybody's ability, realizing there's no such 
thing as a seamless, perfect system--you're certainly not going 
to get it from Washington--that is not acceptable to me. I can 
only speak for myself. It's like we're waiting for something to 
happen. What is the industry doing on its own to try to make it 
happen so that you can then, if you take it at least through 
some point, and you look at the Federal Government to assist 
you to complete the activity, that's one thing. I don't hear 
that. Nor do I hear a sense of urgency on your part.
    Energy is critical. I don't have to tell you; you can tell 
me. I don't feel that we have that sense of energy with regard 
to the utilities of this country.
    I might add, Mr. Chairman, I don't think it's any different 
here than it is throughout the United States of American. These 
are major, major activities that people depend upon, that the 
police will depend upon, and fire will depend upon. And if 
those activities are not able to sustain themselves, there is 
something wrong. You can't expect the sheriff's department to 
hire more people so that they can look after that utility, 
unless we give them more resources to do that. These things 
aren't going to happen, my friend, like they just fall out of 
the sky. It doesn't work that way. It does not work that way.
    So here we're talking about two major areas--I can talk to 
you about them--two major areas. I brought the subject of 
chemical industry up--and the utilities, energy; that we need 
to take a very serious look at yesterday in order to protect 
them, God forbid, if there is a terrorist attack or some kind 
of natural calamity.
    I have no further questions or comments. Thank you, Mr. 
Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell. Just a follow-up, 
Mr. Serra. The infrastructure organizations, are they looking 
at technology in assisting them in protecting our 
infrastructures?
    Mr. Serra. I think you have to have a balance of the 
technology with which to protect the facilities and actual 
individuals to actively be doing the job they're required to 
do. Perhaps the urgency has not been there because it has not 
been a priority for the industry to do that as far as funding 
available to hire these individuals, but I do have the sense 
that it is coming around. I think through the networking among 
the professionals that are now in place is that there is a push 
to have that kind of resource by the utilities.
    Mr. Reichert. Do the contracts also with the local law 
enforcement hire sheriff departments and/or police officers in 
addition to the security personnel?
    Mr. Serra. In certain areas like in the remote areas where 
we have Skagit and the boundary, we have contracts with the 
sheriff's department. But unfortunately that results in just 
one deputy that is then hired to provide 24/7.
    Mr. Reichert. I think the point that Mr. Pascrell was 
trying to make, is there an effort by the community you 
represent to hire dedicated staff; and if there is an effort to 
hire dedicated staff, are you finding difficulty in finding 
that staff to do the job?
    Mr. Pascrell. There is an effort to do exactly that, is to 
hire these people full-time. There's a matter of convincing 
upper management that this is really important to put that much 
money aside to say we need to have on-staff security.
    Mr. Reichert. When you say there's an effort, is that from 
the bottom up?
    Mr. Pascrell. It is from the bottom up. And perhaps much of 
that is just an educational process with regards to the 
importance of having security in place.
    Mr. Reichert. Is there a place that you represented on 
UWAGA?
    Mr. Pascrell. I am still involved with UWAGA, but not in 
the role that I used to play.
    Mr. Reichert. So that critical intelligence information as 
far as risk of threat assessment gets to the community it 
represents, there is an understanding by the people in the 
upper echelon that there is a need for security, tighter, 
security?
    Mr. Pascrell. Right. And unfortunately, with regards to the 
intelligence sector and the UWAGA and the regional intelligence 
group is we have not taken the next step in how we transmit or 
share the information that is gathered with the intelligence 
groups or other agencies that are not law enforcement.
    Mr. Pascrell. I want to add something here.
    You say in your testimony--Mr. Serra, you said the critical 
infrastructure protection is listed as one of DHS's national 
priorities, and as such deserves priority for appropriate 
funding designed to improve and enhance its physical 
information technology and communication system. Programs such 
as the Buffer Zone Protection Plan have been beneficial but one 
that still needs Federal emphasis.
    Let me tell you how I read it. I wouldn't read the rest. 
You can read the rest of it. This is how I read it. Okay? What 
you're waiting for in my estimation is a Federal bailout. You 
haven't started the process really, because what can be said 
about energy in most of the States of the union can be said 
about water and the protection of our water supply. I don't 
have to tell you how critical water is in any time of a tough 
situation or a catastrophic situation, be it manmade, 
terrorism, or be it nature. That's not acceptable to me. I'm 
sorry.
    So what I would do is go back and tell your superiors that 
the committee or certain members of the committee don't find it 
acceptable that you're waiting for the government to protect 
your infrastructure. You haven't really started down the path. 
And we could say this across the United States of America, Mr. 
Chairman. I mean this is a partnership, or it isn't a 
partnership. And if you're waiting for the Federal Government 
to come forward, because there's parts of the Federal 
Government that do not see the urgency either; and if they do, 
don't want to come up with the money. And if they do want to 
come up with the money and place other priorities in the path 
of coming up with that money, we are not going to do this. We 
are not going to accomplish it. Let's not fool the American 
people either. Let's not fool them. They have been fooled 
enough.
    So private industries in priority areas--water is pretty 
much of a priority. Energy is another priority. So you're 
waiting.
    The airlines took that same position. And if they had taken 
some real precautions, those murderers would have never been 
able to do what they did on 9/11. That's my contention. We 
blame the CIA and the AIC and the FBI and the IBF. That's all 
baloney. We have a mixed audience. And the point of the 
matter--
    Mr. Reichert. And we're not in New Jersey.
    Mr. Pascrell. And we're not in New Jersey, that's true. But 
you understand what I'm saying?
    Mr. Pascrell. Yes, sir, I do.
    Mr. Pascrell. Don't take anything I'm saying personally. I 
have heard it before. I just wanted you to know that I heard 
it. I was listening.
    Mr. Serra. I appreciate that, sir.
    Mr. Reichert. Gentlemen, I want to follow up on the theme 
that Mr. Pascrell has been asking questions in follow-up, and 
that's really on the priorities and the frustrated part of 
funding and the Federal Government.
    My background is in King County government as a police 
officer and as sheriff. And if you experience some frustration 
in the Federal government's inability to recognize 
partnerships, there's a couple examples I could give where the 
Federal Government has come to the sheriff's office and said, 
we're from the Federal Government, and we're here to help. And 
the first thing everybody says is run for cover.
    And in this post-September 11th world that we live in, we 
see the same sort of offer. And I think that there has been a 
lot of improvement, but there are those areas where we see some 
gaps or some inability to comprehend and understand really what 
happens when we take the position of saying, we want you to 
help us, we're not going to help you. That's frustrating 
experience with your local law enforcement, your local 
firefighters, local people trying to get the job done.
    So I want to go to the sheriff and ask a question about the 
COPS funding and the Department of Homeland Security grant 
funding, because I know that, my first year in Congress, last 
year, I got into a little battle with the cardinals of the 
party that I represent over the COPS funding process. And when 
you give a $600 million increase to a Federal agency, and then 
you cut $80 million from a local effort, that's not a 
partnership. And that was the point I tried to make.
    So my question to you, Sheriff, is, as you've been 
operating now under this umbrella of the Department of Homeland 
Security and the grant process and seeing the COPS grants 
slowly dwindle, have you seen the--has the Homeland Security 
grant really been a help to you over what COPS used to be, or 
is there a balance there, or are you on the negative side?
    MR. PASTOR: Two things. There's been no question that there 
has been a benefit, so one would appear to be inordinately 
ungrateful if one were to suggest that there hasn't been a 
benefit. There has been a benefit. So shading it all one way is 
just not accurate. That's number one.
    Number two, there has also been frustration that's coming 
forth, as we have discussed before, with the issue that we are 
a people of intensive enterprise. No matter how much technology 
you adopt, ultimately there are people who need to carry out 
things. You can put in surveillance technology, but there has 
to be a person to respond to it. There has to be a person to 
react to it. Only human beings, properly trained, properly 
deployed, can prevent a terrorist attack. That was my gas mask 
analogy; yes, you can put on a gas mask afterwards, but a man 
or woman, whether they have this kind of badge or a fire badge, 
whether they're involved in public health or other kinds of 
responder roles, are the people who are going to be able to get 
ahead of the curve to do this.
    The issue of resources relates to what I said about 
sacrifice. Citizenship involves sacrifice. It becomes a focus 
like a laser in time of war; and we are at war. And for some 
reason we don't dig inside ourselves and say at war we must 
sacrifice. We treat citizenship as if it is consumerism, as if 
we can gather as many goodies to ourselves as possible. 
Citizenship isn't about that. It's about obligation, it's about 
duty, it's about something bigger than that.
    And so when we ask people with badges on and a military 
uniform on to sacrifice, we also want to ask citizens to 
sacrifice. We want Federal Government leaders and local 
government leaders to lead citizens toward the path of 
sacrifice in order to preserve the country, preserve our 
freedoms, preserve our liberties.
    Mr. Reichert. You should run for Congress. Mr. Pascrell, do 
you have any additional comment?
    Mr. Pascrell. No, thank you, Mr. Chairman, thank the panel. 
Great job.
    Mr. Reichert. Thank you, panel. And thank all of you for 
being here today. It's been a valuable experience, I think, for 
all of us. Members of the committee may have some additional 
questions for the witnesses, and we will ask that you respond 
to those in writing. The hearing record will be open for ten 
days without objection.
    Committee stands adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
